<html>
<title> - GLOBAL CHALLENGES AND U.S. NATIONAL SECURITY STRATEGY</title>
<body><pre>[Senate Hearing 115-738]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 115-738

         GLOBAL CHALLENGES AND U.S. NATIONAL SECURITY STRATEGY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 25, 2018

                               __________

         Printed for the use of the Committee on Armed Services

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available via http://www.govinfo.gov
                  
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-552 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman                            
  JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
  ROGER F. WICKER, Mississippi		BILL NELSON, Florida
  DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
  TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
  MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
  JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
  THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
  DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
  DAVID PERDUE, Georgia			TIM KAINE, Virginia
  TED CRUZ, Texas				ANGUS S. KING, JR., Maine
  LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
  BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
  LUTHER STRANGE, Alabama              	GARY C. PETERS, Michigan
                                                            
               
                   Christian D. Brose, Staff Director
                   Elizabeth L. King, Minority Staff Director


                                  (ii)

 
                           C O N T E N T S

    _________________________________________________________________

                            January 25, 2018

                                                                   Page

Global Challenges and U.S. National Security Strategy............     1

Kissinger, Dr. Henry A., Chairman of Kissinger Associates and         4
  Former Secretary of State.
Shultz, Dr. George P., Thomas W. and Susan B. Ford Distinguished     12
  Fellow, Hoover Institution, Stanford University, and Former 
  Secretary of State.
Armitage, Richard L., President, Armitage International and          17
  Former Deputy Secretary of State.

                                 (iii)


 
         GLOBAL CHALLENGES AND U.S. NATIONAL SECURITY STRATEGY

                              ----------                              


                       THURSDAY, JANUARY 25, 2018

                                   U.S. Senate,    
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-G50, Dirksen Senate Office Building, Senator James M. 
Inhofe, presiding.
    Committee members present: Senators Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Sullivan, Perdue, Sasse, Scott, 
Reed, Nelson, Shaheen, Gillibrand, Donnelly, Hirono, Kaine, 
King, Heinrich, and Warren.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Our meeting will come to order.
    The Senate Armed Services Committee meets this morning to 
receive testimony on global challenges and the United States 
national security strategy to meet those threats.
    It is my honor to welcome our distinguished witnesses, 
former Secretaries of State, Henry Kissinger and George Shultz, 
and the former Deputy Secretary of State, Richard Armitage. 
Your careers of service have been just unbelievable, been 
great, and we are so honored to have you folks here.
    I want to begin by reading a brief welcome from our 
Chairman McCain, who regrets that he is unable to be here for 
today's hearing, and I am quoting him now.
    He says, with the rising global challenges of an 
increasingly complex and competitive strategic environment, 
America needs the leadership, wisdom, and experience that only 
statesmen of this stature can provide. This committee and this 
nation thank you for your service, and we are grateful for your 
continued voices of reason during these troubling times. We 
look to you for the lessons of history as we all seek to secure 
a safer, freer, and more prosperous world.
    I guess one of the most enjoyable committee hearings that I 
have experienced before was 3 years ago when we had a hearing 
of the same. Both Secretaries Kissinger and Shultz were here. A 
lot of the comments that you made were very prophetic. Here it 
is 3 years later. A lot of these things have happened. So we 
are looking forward to this.
    Speaking on behalf of the entire committee, we all look 
forward to having the chairman back soon. I am sure he will be.
    Now more than ever, the challenges of today's world require 
strategic vision. Each of you is uniquely qualified to help 
this committee think through not only our present challenges 
but also the strategy needed to meet them. The insights and 
wisdom you offered then were discerning and have borne out in 
the years since.
    The Trump administration recently released a new national 
security strategy [NSS] and a national defense strategy [NDS], 
which emphasizes the priority of near-peer competition, the 
danger of rogue nations, and the enduring threat of terrorism. 
The national defense strategy is a frank and realistic view of 
the global strategic environment. It offers a blueprint for 
protecting our national interests and reestablishing America's 
position as the undisputed leader of the free world, and it 
shows a commitment to restoring our military advantage across 
all domains and strengthening and expanding key alliances.
    So we just ask each of you to help us think through the 
strategy. The members of this committee are well aware that the 
key to success of any strategy requires resources. We need to 
cast aside partisan politics and pass an appropriation bill 
while finding a way to fix the defense spending caps that have 
decimated our military in terms of readiness and modernization. 
So we thank you for your service and look forward to your 
testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    I would like to welcome Dr. Kissinger and Secretary Shultz 
and Secretary Armitage. This is certainly a distinguished 
panel, and we are grateful that you are here today. Each of you 
have played a very important role in some of the most 
monumental foreign policy decisions in our nation's history, 
and on behalf of all the members of the committee, we look 
forward to your testimony.
    This morning's hearing on global challenges and U.S. 
national security follows the release last week of the new 
national defense strategy. This strategy, which supports the 
President's recently released national security strategy, 
states that the central challenge facing our nation is the 
reemergence of long-term strategic competition with Russia and 
China and that this competition replaces terrorism as the 
primary concern in the U.S. national security.
    Without question, Russia remains determined to reassert its 
influence around the world, most recently by using malign 
influence and active measures and activities to undermine the 
American people's faith in our election process, as well as 
other Western elections.
    Likewise, China continues to threaten the rules-based order 
in the Asia-Pacific region by economic coercion of its smaller, 
more vulnerable neighbors and by undermining the freedom of 
navigation.
    Given the experience of our panel, I would welcome their 
assessment of the strategic threat posed by both Russia and 
China and what recommendations they have for how the United 
States can counter these powers both militarily and by 
utilizing other critical elements of national power.
    Great power competition may be the current geostrategic 
reality, but we must not neglect other equally complicated 
challenges: North Korea's nuclear and ballistic missile 
efforts, our immediate and grave national security threat. 
Likewise, Iran continues their aggressive weapons development 
activities, including ballistic missile development efforts, 
while pursuing other destabilizing activities in the region. 
Finally, the United States must remain focused on countering 
the security threat from the Islamic State of Iraq and Syria 
(ISIS) and its spread beyond the Middle East region while also 
building the capabilities of the Afghan National Security 
Forces and deny any safe haven for extremists.
    In the coming weeks, this committee will hear directly from 
Secretary Mattis and senior leaders in the Defense Department 
on how the national defense strategy will address the threats 
facing our nation. As we begin our review of the national 
defense strategy, it would benefit this committee to get our 
witnesses' assessment of the new strategy and whether it 
strikes the appropriate balance between great power competition 
and the ongoing threats posed by rogue regimes, terrorist 
organizations, and other non-state actors and criminal 
organizations.
    Finally, the new strategy emphasizes a simple but key fact: 
the importance of allies and partners. The esteemed panel 
before us knows better than most that robust international 
alliances are essential to keeping our country safe. The 
national defense strategy unveiled last week puts a premium on 
bolstering current alliances while pursuing new partners.
    As I have stated many times, I am deeply concerned about 
statements from President Donald Trump that have undercut 
America's leadership position in the world, alienated our 
longtime allies, and dismissed the global order the United 
States helped established following World War II. These actions 
isolate the United States and weaken our influence in the 
world, ultimately leading to uncertainty and the risk of 
miscalculation.
    At the same time, the Trump administration has proposed 
dramatic cuts to the State Department and career Foreign 
Service officers are leaving the government at an alarming 
rate. I am concerned we may seek to counter the ``whole of 
nation'' strategies pursued by Russia and China simply by 
reinvesting in our own comparative military advantage at the 
expense of necessary investments in diplomacy and development 
as essential tools of national power. Given our panel's 
extensive experience cultivating allies and promoting 
diplomacy, I would welcome their assessment of our current 
alliances, what more can be done to sustain these critical 
relationships, and the importance of non-military elements of 
national power to our security.
    Once again, I want to thank the witnesses for being here 
and, more importantly, for their lifetime of service and 
dedication to the United States of America.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Reed.
    Normally we ask our witnesses to confine their remarks to a 
certain time. I would not be so presumptuous. Talk as long as 
you want to.
    [Laughter.]
    Senator Inhofe. Dr. Kissinger, you are recognized. Thank 
you so much for being here.

  STATEMENT OF DR. HENRY A. KISSINGER, CHAIRMAN OF KISSINGER 
            ASSOCIATES AND FORMER SECRETARY OF STATE

    Dr. Kissinger. It is a great honor to have this 
opportunity, and I would like to say one word about our 
chairman who I have known for 50 years since he returned from 
Vietnam. At that time, I had been in Hanoi and they had offered 
to let me take him on my plane back to the United States. I 
refused on the ground that nobody should get special treatment. 
When I met him here at the White House, he came up to me and 
said, ``Thank you for saving my honor.'' Senator McCain has 
preserved the honor of our country as a great warrior but also 
as someone who wherever the weak were threatened and the judged 
were persecuted, he made it clear that America was on their 
side and that he was not simply a warrior but a defender of our 
values all over the world. So thank you particularly for this 
occasion.
    You have asked me to review the international situation, 
and I have taken the liberty of submitting a statement to the 
committee, and I will use my time here just to make a few 
general points and then reply to your questions.
    I would also like to say how meaningful it is to me to sit 
next to my friend and mentor, George Shultz, from whom I have 
learned so much, and Mr. Armitage, who has performed such great 
national services.
    I will deal with your query in three parts: the urgent, 
exemplified by the North Korean nuclear challenge; the 
intermediate, exemplified by the Middle East, especially Iran; 
and the long term, to which the chairman referred, exemplified 
by great power relationships and by the reentry of great power 
politics as the key elements of international affairs.
    The international situation facing the United States is 
unprecedented. What is occurring is more than a coincidence of 
individual crises. Rather, it is a systemic failure of world 
order which is gathering momentum and which has led to an 
erosion of the international system rather than its 
consolidation, a rejection of territorial acquisition by force, 
expansion of mutual trade benefits without coercion, which are 
the hallmark of the existing system are all under some kind of 
strain. Confounding this dynamism is the pace of technological 
development whose extraordinary progress threatens to outstrip 
our strategic and moral imagination and makes the strategic 
equation tenuous unless major efforts are made to sustain it.
    The most immediate challenge to international security is 
posed by the evolution of the North Korean nuclear program. 
Paradoxically, it is only after Pyongyang has achieved nuclear 
and intercontinental missile testing breakthroughs, accompanied 
by threatening assertions, U.S. and international measures to 
deal with it have begun to be applied. That has raised the 
possibility that, as in the case of Iran, an international 
effort intended to prevent a radical regime from developing a 
nuclear capability will culminate at the very point that that 
regime is perfecting its capacity. For the second time in a 
decade, an outcome that was widely considered unacceptable is 
now on the verge of becoming irreversible.
    My fundamental concern about the nuclear program of Korea 
is not the threat it poses to the territory of the United 
States, significant as it is. My most immediate concern is the 
following. If North Korea still possesses a military nuclear 
capability in some finite time, the impact on the proliferation 
of nuclear weapons might be fundamental because if North Korea 
could maintain its capability in the face of opposition by 
China and the United States and the disapproval of the rest of 
the world, other countries are bound to feel that this is the 
way for achieving international prominence and the upper hand 
in international disputes.
    So, therefore, I think the denuclearization of North Korea 
must be a fundamental objective. If it is not reached, we have 
to prepare ourselves for the proliferation of weapons to other 
countries which will create a new pattern of international 
politics which will affect our concept of deterrence and a 
possibility of deterrence and which will have to be carefully 
examined and which this committee will want to address.
    In the Middle East, we face the disintegration of the 
international system as it has existed at the end of the First 
World War and at the end of the Second World War. And every 
country in the region is either a combatant or a theater of 
conflict. And to me, the overriding concerns at the moment are 
these.
    We have successfully defeated the Islamic State in Iraq and 
Syria (ISIS), but the question now is the succession, what 
happens next. And I am concerned that in the territory once 
occupied by ISIS, Iranian and Russian forces will become 
dominant and we will see a belt emerging that goes from Tehran 
to Beirut, therefore undermining the structure of the region 
and creating a long-term challenge.
    Finally, I want to refer to what has been identified by the 
Trump administration as the dominant element now, the great 
power relationship between the United States and China and 
Russia. There is no doubt that the military capacity of China, 
as well as its economic capacity, is growing, and there have 
been challenges from Russia that have to be met especially in 
Ukraine, Crimea, and Syria. This raises these fundamental 
questions. What is the strategic relationship between these 
countries vis-a-vis the prospect of peace? Is their strength 
comparable enough to induce restraint? Are their values 
compatible enough to encourage an agreed legitimacy? These are 
the challenges that we face. The balance of power must be 
maintained, but it is also necessary to attempt a strategic 
dialogue that prevents the balance of power from having to be 
tested. This is the key issue in the United States relationship 
with Russia and China.
    Let me conclude by stressing that I think that the 
fundamental situation of the United States is strong, that we 
have the capacity to meet these challenges. China has to deal 
with significant domestic adjustments and it is possible that 
it will balance those against the pressures that it can exert 
outside. Russia is domestically also in considerable 
difficulty. My basic point is that we can maintain a favorable 
balance of power, but we must couple it with a political 
structure in which the issue of war and peace can be used as a 
diplomatic as well as a military expression. This is because 
the evolution of Weapons of Mass Destruction (WMD) is so great 
and the challenges of technology are multiplying that both 
elements of our national strategy must be stretched. And I am 
confident that we can achieve these objectives in that spirit.
    Thank you.
    [The prepared statement of Dr. Kissinger follows:]

              Prepared Statement by Dr. Henry A. Kissinger
    Mr. Chairman, Ranking Member Reed:
    Thank you for the honor of appearing before this Committee. You 
have asked me to comment on the international challenges facing the 
United States and ``what from the standpoint of national strategy'' we 
can do to best position ourselves ``to succeed'' in this ``competitive 
global environment.'' I shall do so in three parts: the urgent, 
exemplified by the North Korean nuclear challenge; the intermediate, 
exemplified by the Middle East, especially Iran; and the long term, 
exemplified by great power relationships.
    The international situation facing the United States is 
unprecedented. What is occurring is more than a coincidence of 
individual crises across various geographies. Rather, it is a systemic 
failure of world order which, after gathering momentum for nearly two 
decades, is trending towards the international system's erosion rather 
than its consolidation, whether in terms of respect for sovereignty, 
rejection of territorial acquisition by force, expansion of mutually 
beneficial trade without geoeconomic coercion, or encouragement of 
human rights. In the absence of a shared concept among the major powers 
expansive enough to accommodate divergent perspectives of our national 
interests, partially derived from our diverse historical experiences, 
traditional patterns of great power rivalry are returning. Complicating 
this dynamic is the pace of technological development, whose 
extraordinary progress threatens to outstrip our strategic and moral 
imaginations--and in the field of artificial intelligence, may redefine 
our consciousness altogether. This creates new potential for truly 
catastrophic confrontations between nations.
                              north korea
    The most immediate challenge to international peace and security is 
posed by North Korea. Paradoxically, it is only after Pyongyang has 
achieved nuclear and intercontinental missile breakthroughs, 
accompanied by threatening assertions and demonstrations, that measures 
to thwart these activities have begun to be applied. This has raised 
the possibility that--as in the case of Iran--an international effort 
intended to prevent a radical regime from developing a destabilizing 
capability will coincide diplomatically with the regime perfecting that 
very capacity. For the second time in a decade, an outcome that was 
widely considered unacceptable is now on the verge of becoming 
irreversible.
    While the pressure campaign against North Korea appears to have 
achieved gains in the last year, no breakthrough has taken place on the 
essence of the matter: North Korea acquired nuclear weapons to assure 
its regime's survival; in its view, to give them up would be tantamount 
to suicide. North Korea's nuclear arsenal is often presented as a 
threat to the territorial United States. But its most profound impact 
will be on its neighbors in Asia. South Korea will reject an outcome 
that leaves North Korea the only nuclear power on the Peninsula. For 
its part, Japan will not live with either version of Korean nuclear 
military power.
    Successive American administrations have appealed to China to 
``solve'' the problem by cutting off Pyongyang's supplies. China has 
not done so because it could lead to the collapse of North Korea. In a 
comparable situation in 1950, the proximity of Korea to major Chinese 
population and industrial centers was sufficiently ominous to cause 
China to intervene in the conflict. An agreement on the future of 
Korea, perhaps by the revival of the established Six-Party Forum--or 
failing that, energized by the United States and China--is the best 
road to the denuclearization of the Peninsula and also, vis-`-vis Iran, 
to the stability of the Middle East.
    The widely discussed ``freeze for freeze'' scheme--halting North 
Korean missile tests in return for abandoning defined Allied military 
exercises--will not, however, fulfill this purpose or even advance it. 
That would equate legitimate security operations with activities which 
have been condemned by the UN Security Council for decades. And it 
would encourage demands for additional restraints on, and perhaps the 
dismantling of, America's alliances in the region. In its ultimate 
sense, a freeze would legitimize North Korea's nuclear establishment as 
well as the results of its previous tests.
    Interim steps towards full denuclearization may well be part of an 
eventual negotiation. But they need to be steps towards this ultimate 
goal: the dismantlement of Pyongyang's existing arsenal. They must not 
repeat the experience of the Vietnamese and Korean negotiations, which 
were used as means to buy time to further pursue their adversarial 
objectives.
                            the middle east
    While North Korea poses the most immediate danger, the interacting 
conflicts across the Middle East pose the most entrenched and 
expanding. Almost every country is either a combatant or a battlefield 
in one or more wars. The challenge in Asia is to maintain a generally 
stable equilibrium; in the Middle East, it is to restore a legitimate 
structure to a wide swath of territory where state authority has 
deteriorated or dissolved.
    Across the Middle East, the system of order that emerged from the 
First World War is now in shambles. Conflicts are occurring on 
ideological grounds, as between Shia and Sunni; between ethnic groups; 
and against the state system. Four states have ceased to function as 
sovereign: Syria, where a civil war, now in its seventh year, rages; 
Iraq, where ISIS, though beaten back, continues to attempt to challenge 
efforts to reconsolidate the state; Libya; and Yemen have all become 
battlegrounds for factions and outside influences seeking to impose 
their rule.
    The multiplicity of contestants roils the region with ever-evolving 
challenges. The world's war against ISIS is an illustration. Most non-
ISIS powers--including Shia Iran and leading Sunni states--agree that 
ISIS must be destroyed. But the disposition of the territory regained 
from ISIS presents a new challenge. If ISIS' former strongholds come to 
be occupied by Iran's Revolutionary Guard or Shia militia subject to 
it, the result will be a belt of Iranian influence stretching from 
Tehran through Baghdad and Damascus all the way to Beirut. Tehran's 
version of jihadism would replace the Islamic State's, and a restored 
Iranian empire would emerge.
    In this regard, Iran has become the key contemporary challenge in 
the Middle East. Historically and politically, it has been the most 
consistently cohesive power of the region, the only one which preserved 
its language and historic culture during the Islamic conquest. Its 
present impact results from its emergence, in the eyes of many of the 
region's leaders, as a nuclear threshold state in the aftermath of the 
JCPOA, a status seemingly conferred by that deal on Iran in 2015. Its 
reach is further enhanced by the subtle and aggressive strategy of its 
leadership: on one hand, defining Iran as a sovereign state within the 
UN system subject to its restraints and obligations; but on the other, 
identifying Iran as a revolutionary power attacking the existing world 
order. In that capacity, Iran's proxies in Yemen, Lebanon, and Iraq 
undermine or subsume existing governments.
    Two measures should be taken by the United States and its allies: 
to oppose Iranian hegemonic expansion; and to commit to preventing an 
Iranian nuclear weapon. The first task has some similarities to 
America's role in conducting and ending the Cold War. In the aftermath 
of the Second World War, a group of historic countries confronted a 
Soviet Union enhanced by the war and imbued with a revolutionary 
ideology. Under American leadership, a coalition was formed that drew a 
line defining the limit of Soviet expansion that would be tolerated, 
eventually achieving containment and a negotiated end of the Cold War.
    The enforcement of the JCPOA is the prerequisite to arresting 
nuclear proliferation which, if spread across the Middle East and Asia, 
will require recasting the system of deterrence that now exists. That 
United States needs to make clear that beyond the enforcement of the 
JCPOA, it will oppose the emergence of any Iranian nuclear military 
capability. These steps are essential to shoring up and reshaping world 
order.
                         great power relations
    Beyond the issues of the moment looms the fundamental question of 
world order. How does the conduct of the major countries affect the 
prospects for peace? Is their strength comparable enough to induce 
restraint? Are their values compatible enough to encourage an agreed 
legitimacy?
    Administration pronouncements--both in the National Security 
Strategy statement and in comments by the Secretary of Defense--about 
America's strategic future have identified China and Russia as 
potential threats to the world's equilibrium and have defined America's 
national security objectives as thwarting their designs.
    The practical requirements of our stated defense policy, which I 
endorse, do not exhaust the range of necessary security policies. If 
history teaches any lesson, it is that calculations of balance of power 
are not always unambiguous, especially in a period of rapid 
technological change which characterizes our period. The outbreak of 
World War I is a good example. The nations of Europe, in a crisis not 
significantly different from several previously overcome, challenged 
the existing equilibrium with consequences from which Europe has not 
fully recovered in the century since.
    In a world of admitted rivalry and competition, a balance of power 
is necessary but not sufficient. The underlying question is whether a 
renewed rivalry between major powers can be kept from culminating in 
conflict. This presupposes an agreed concept of legitimacy or, at a 
minimum, a quest for it.
    For most of the past quarter-century, Americans assumed that post-
Cold War China and Russia would join the United States as pillars of 
the liberal international order and that our shared challenges, such as 
preventing nuclear proliferation and managing the global economy, would 
facilitate our ever-closer cooperation. But we have been reminded that 
our national interests, based on our diverse histories, do not 
automatically converge, creating a need to manage our differences. A 
new strategic concept of major power relations, which seeks both to 
stabilize the military equation and shield the world from catastrophe, 
is imperative. Two principles must guide this effort. I will say a few 
words about each.
    First, the balance of power must be maintained. This requires an 
acute understanding of the principal elements of power, especially in 
this era of accelerating change. It also requires answers to these 
challenges: What threats are so central to American security that we 
will resist them alone, if necessary? What threats will we deal with 
only with allies? What challenges do not rise to the level of military 
confrontation?
    Second, balancing world power, while essential, must not constitute 
the entirety of our policy. Today, the complexity, ambiguity, and 
volatility of highly advanced weapons, combined with emerging cyber and 
space-based technologies and artificial intelligence, would render a 
conflict between major powers a catastrophe unique in human history. 
The requirements of a balance which avoids such a conflict can be 
sustained only by governments whose publics believe in their peaceful 
purposes.
    Our concept of major power relations must therefore include a 
diplomacy of world order side by side with a military element. Such an 
outcome presupposes that all parties' core interests are compatible, or 
seek to be so, through continual dialogue as these interests evolve. 
This policy also assumes strict reciprocity.
    Never before has such a project been carried out in comparable 
circumstances dealing with such vast potential consequences. But it is 
our historic task. In this, China and Russia, though each possesses a 
profound capacity to impact world order, pose different challenges.
    China is a rising power, as a matter of both policy and historical 
inevitability. Both it and the United States, an established power, are 
obliged by necessity to undertake a reexamining of their historic 
thinking. Not since it became a global power after World War II has 
America had to contend with a geopolitical equal. And never in China's 
centuries-long history has it conceived of a foreign nation as more 
than a tributary to the centrality of its power and culture. Each 
thinks of itself as exceptional, but differently: the United States 
believes its values ultimately will be universally adopted. China 
believes less in emulation than in the impact of a majestic example 
that will motivate other societies to turn towards Beijing on the basis 
of respect. The Belt and Road Initiative, by seeking to connect China 
to Central Asia and eventually Europe, is an expression of this 
thinking: it is a quest to shift the world's center of gravity.
    With China, the challenge of world order involves the possibility 
of enabling two different concepts of nationhood to exist at least 
peacefully--and ideally cooperatively--side by side. American 
presidents of both parties and Chinese leaders have, for the past 
decades, sought cooperation at various summits. They have made some 
progress but have been inhibited by differences in culture: America 
seeking practical solutions to relatively short-term issues; China in 
quest of longer perspectives. If the goal of developing a concept of 
peaceful coevolution is not achieved, the risks of conflict may become 
unmanageable.
                                 russia
    Russia exhibits occasionally a quest of naked dominion as vis-`-vis 
Ukraine. Historically impelled by its geography--eleven time zones, few 
natural defensive demarcations--Russia developed a definition of 
absolute security that has driven it to seek to dominate its neighbors. 
In recent decades, the collapse of the Soviet Union has led almost all 
peoples at Russia's borderlands to reassert their independence. Many 
sought to preserve their sovereignty by aligning with the West and 
joining NATO.
    I strongly supported NATO's expansion to countries that 
traditionally were part of Europe's system of statehood. A special 
issue has arisen, however, with respect to countries with historic, 
cultural, and religious ties to both East and West, principally Georgia 
and Ukraine.
    The challenge of Russia is whether it is possible to develop a 
concept of coexistence that addresses both the requirements of Europe's 
defense and a stable security architecture for the lands adjacent to 
it. Surely, the wisest course is to couple firm resistance of 
transgressions against international order with prospects for Russian 
participation in dialogues on international order. Rather than comprise 
a permanent zone of confrontation, criteria should be sought for 
Russia's geographic tangents to involve a zone of potential 
cooperation.
    Few countries in history have started more wars or caused more 
turmoil than Russia in its quest for absolute security. But 
paradoxically, it is also true that at several key points in the last 
millennium, the balance of power in Europe has been preserved by 
Russian effort and sacrifice--against the Mongols, then against the 
Swedes, then Napoleon, then Hitler. While Russia's strength is our 
current preoccupation, history suggests that Russian weakness, in the 
final calculus, could produce its own dangers to world order by 
unleashing an orgy of violence in the contest over control of the 
territory east of the Urals.
                           the future of nato
    The traditional patterns of the Atlantic Alliance, which was 
established in a concerted effort to balance against a singular threat, 
will not be easily applied to the world I just described. NATO was 
formed in 1949 to protect its members from Soviet assault. It has since 
evolved into a network of nations attempting to coalesce and react 
jointly to destabilizing international crises outside the original 
treaty area.
    In the world I have just described, there will be a temptation for 
Europe to maneuver between Asia and America, exploiting the 
fluctuations which surround it. But the realities of demographics, 
resources, technology, and capital continue to assure a decisive role 
in the world for an engaged America and a Europe committed to Atlantic 
principles. It will not, however, come about automatically. NATO's 
contribution to world order requires it to be clear about its strategic 
purposes. What outcomes, other than violations of its members' 
sovereignty, does it seek to prevent, and by what means? What are its 
strategic goals? By what means will it achieve them? To determine 
whether a unified Atlantic outlook can be renewed and applied to this 
new world is a key to long-range strategy.
                               conclusion
    The United States must address all these questions at a moment when 
many in the wider world believe Americans have voluntarily stepped back 
from strong leadership, so no longer can be expected to shoulder the 
burdens that come with an integrative, large-minded policy of support 
for the international state system.
    This is ironic. The reality is that America is in a strong 
position. China has important domestic agenda considerations and does 
not want attention to these disrupted by external conflict. Russian 
actions in Eastern Europe and the Middle East have evoked reactions in 
the direction of retrenchment. Iran's pursuit of empire is creating 
countervailing forces that make possible its containment.
    The stakes are high. The liberal world order, now some 300 to 400 
years in development, has been the only truly international, indeed 
global, structure open to all peoples everywhere. Uniquely, it is 
procedural, not ideological. That means it is flexible, open, 
cooperative, and able to make mid-course corrections as needed. But it 
is not self-executing. America's initiatives and its integrative 
approach will spell the difference between stability and calamity.

    Senator Inhofe. Thank you very much, Dr. Kissinger.
    We pause for a moment here. We have a quorum, and so I ask 
the committee to consider a list of 1,056 pending military 
nominations. All of these nominations have been before the 
committee the required length of time.
    Is there a motion to favorably report this list of 1,056 
pending military nominations to the Senate?
    Senator Reed. So moved.
    Senator Inhofe. There is a motion.
    Is there a second?
    Senator Wicker. Second.
    Senator Inhofe. All those in favor, say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No response.]
    Senator Inhofe. The ayes have it.
    [The list of nominations considered and approved by the 
committee follows:]

 Military Nominations Pending with the Senate Armed Services Committee 
  Which are Proposed for the Committee's Consideration on January 25, 
                                 2018.
    1.  MG Scott D. Berrier, USA to be lieutenant general and Deputy 
Chief of Staff, G-2, U.S. Army (Reference No. 1120)

    2.  BG Charles L. Plummer, USAF to be major general (Reference No. 
1217)

    3.  Col. Sharon R. Bannister, USAF to be brigadier general 
(Reference No. 1223)

    4.  In the Air Force there are 35 appointments to the grade of 
lieutenant colonel (list begins with Sarah E. Abel) (Reference No. 
1233)

    5.  In the Navy there are 2 appointments to the grade of commander 
(Paul F. Magoulick) (Reference No. 1244)

    6.  MG Jeffrey A. Rockwell, USAF to be lieutenant general and Judge 
Advocate General of the Air Force (Reference No. 1295)

    7.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Nicholas H. Steging, Jr.) (Reference No. 1303)

    8.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Jonathan S. Durham) (Reference No. 1304)

    9.  In the Army there are 2 appointments to the grade of brigadier 
general (list begins with Anthony R. Hale) (Reference No. 1320)

    10.  In the Air Force there are 2 appointments to the grade of 
major (list begins with Brett L. Hedgepeth) (Reference No. 1321)

    11.  In the Air Force there are 2 appointments to the grade of 
lieutenant colonel and below (list begins with Joanna K. Kowalik) 
(Reference No. 1322)

    12.  In the Army there is 1 appointment to the grade of major 
(Aleksandr Gutman) (Reference No. 1323)

    13.  In the Navy there are 3 appointments to the grade of 
lieutenant commander (list begins with Laura C. Gilstrap) (Reference 
No. 1324)

    14.  In the Air Force there are 19 appointments to the grade of 
major (list begins with Trish M. Arno) (Reference No. 1427)

    15.  In the Army there is 1 appointment to the grade of major 
(Robert L. Ozburn) (Reference No. 1428)

    16.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Todd D. Husty) (Reference No. 1429)

    17.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Dawn M. Stankus) (Reference No. 1430)

    18.  In the Marine Corps there is 1 appointment to the grade of 
major (Christopher N. Earley) (Reference No. 1431)

    19.  MG Eric J. Wesley, USA to be lieutenant general and Deputy 
Commanding General, Futures/Director, Army Capabilities Integration 
Center, U.S. Army Training and Doctrine Command (Reference No. 1451)

    20.  MG Theodore D. Martin, USA to be lieutenant general and Deputy 
Commanding General/Chief of Staff, U.S. Army Training and Doctrine 
Command (Reference No. 1452)

    21.  Col. Susie S. Kuilan, USAR to be brigadier general (Reference 
No. 1453)

    22.  MG Leslie C. Smith, USA to be lieutenant general and The 
Inspector General, Office of the Secretary of the Army (Reference No. 
1454)

    23.  RADM(lh) Johnny R. Wolfe, USN to be vice admiral and Director 
for Strategic Systems Programs (Reference No. 1456)

    24.  Capt. John C. Ring, USN to be rear admiral (lower half) 
(Reference No. 1457)

    25.  RADM(lh) Scott D. Conn, USN to be rear admiral (Reference No. 
1458)

    26.  In the Air Force Reserve there are 8 appointments to the grade 
of colonel (list begins with Jin Hwa Lee Frazier) (Reference No. 1460)

    27.  In the Air Force Reserve there are 12 appointments to the 
grade of colonel (list begins with Corey L. Anderson) (Reference No. 
1461)

    28.  In the Air Force Reserve there is 1 appointment to the grade 
of colonel (Michael C. Maine) (Reference No. 1462)

    29.  In the Air Force Reserve there are 4 appointments to the grade 
of colonel (list begins with Melissa A. Day) (Reference No. 1463)

    30.  In the Air Force Reserve there are 8 appointments to the grade 
of colonel (list begins with Matthew M. Bird) (Reference No. 1464)

    31.  In the Air Force Reserve there are 4 appointments to the grade 
of colonel (list begins with Holly L. Brewer) (Reference No. 1465)

    32.  In the Air Force Reserve there are 119 appointments to the 
grade of colonel (list begins with John G. Andrade) (Reference No. 
1466)

    33.  In the Air Force Reserve there is 1 appointment to the grade 
of colonel (Joshua M. Kovich) (Reference No. 1467)

    34.  In the Air Force Reserve there are 4 appointments to the grade 
of colonel (list begins with David M. Dersch, Jr.) (Reference No. 1468)

    35.  In the Air Force Reserve there are 5 appointments to the grade 
of colonel (list begins with Lance J. Kim) (Reference No. 1469)

    36.  In the Air Force Reserve there is 1 appointment to the grade 
of colonel (David L. Wells II) (Reference No. 1470)

    37.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Jocelyn A. Leventhal) (Reference No. 1471)

    38.  In the Army Reserve there are 14 appointments to the grade of 
colonel (list begins with Alyssa S. Adams) (Reference No. 1472)

    39.  In the Army Reserve there are 2 appointments to the grade of 
colonel (list begins with Kenneth S. Katrosh) (Reference No. 1473)

    40.  In the Army there are 2 appointments to the grade of colonel 
(list begins with Joseph Kloiber) (Reference No. 1474)

    41.  In the Army there is 1 appointment to the grade of colonel 
(Erick C. Crews) (Reference No. 1475)

    42.  In the Army there are 3 appointments to the grade of major 
(list begins with Michael C. Bradwick) (Reference No. 1476)

    43.  In the Army there are 5 appointments to the grade of major 
(list begins with Zachary T. Busenbark) (Reference No. 1477)

    44.  In the Army there are 2 appointments to the grade of major 
(list begins with Gabby V. Canceran) (Reference No. 1478)

    45.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Adam T. Soto) (Reference No. 1479)

    46.  In the Army there is 1 appointment to the grade of colonel 
(Philip J. Dacunto) (Reference No. 1480)

    47.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Lyle A. Ourada) (Reference No. 1481)

    48.  In the Army there is 1 appointment to the grade of major 
(Sherry M. Kwon) (Reference No. 1482)

    49.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Paul I. Ahn) (Reference No. 1485)

    50.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Allen G. Gunn) (Reference No. 1486)

    51.  In the Marine Corps there are 4 appointments to the grade of 
colonel (list begins with William Doctor, Jr.) (Reference No. 1487)

    52.  In the Marine Corps there are 2 appointments to the grade of 
lieutenant colonel (list begins with Paulo T. Alves) (Reference No. 
1490)

    53.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Henry W. Soukup) (Reference No. 1492)

    54.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (William W. Inns III) (Reference No. 1493)

    55.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Craig A. Elliott) (Reference No. 1496)

    56.  In the Marine Corps there are 3 appointments to the grade of 
lieutenant colonel (list begins with Bill W. Brooks, Jr.) (Reference 
No. 1497)

    57.  In the Marine Corps there are 734 appointments to the grade of 
major (list begins with Edward J. Abma) (Reference No. 1498)

    58.  In the Marine Corps there are 23 appointments to the grade of 
major (list begins with Justin R. Anderson) (Reference No. 1499)

    59.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Steven P. Hulse) (Reference No. 1500)

_______________________________________________________________________
                                                                    
TOTAL: 1,056

    Secretary Shultz, thank you so much for being here.

STATEMENT OF DR. GEORGE P. SHULTZ, THOMAS W. AND SUSAN B. FORD 
DISTINGUISHED FELLOW, HOOVER INSTITUTION, STANFORD UNIVERSITY, 
                 AND FORMER SECRETARY OF STATE

    Dr. Shultz. Thank you, Mr. Chairman.
    First, I would like to pay tribute to Senator McCain. Like 
Henry, I have known him a great, long time. He fought for his 
country in combat. He endured terrible suffering and privation 
as a prisoner of war, and he managed to handle himself with 
dignity and pride.
    Then he has served as a Senator and a presidential 
candidate. I remember those days and the slogan ``country 
first.'' That is John McCain. ``Country first,'' always.
    So, Senator, I am sorry you are not here, but I want you to 
know how much I admire how you have served our country.
    I would like to express my appreciation to be testifying 
alongside my two friends here, Henry Kissinger and Rich 
Armitage.
    And I take the occasion to particularly underline one of 
the things that Henry brought out in his testimony, that is, 
the concern we must have about nuclear proliferation. As you 
remember in the Reagan period, we worked hard. President Reagan 
thought nuclear weapons were immoral, and we worked hard to get 
them reduced. And we had quite a lot of success. In those days, 
people seemed to have an appreciation of what would be the 
result of a nuclear weapon if it were ever used. I fear people 
have lost that sense of dread. And now we see everything going 
in the other direction, nuclear proliferation. The more 
countries have nuclear weapons, the more likely it is one is 
going to go off somewhere and the more fissile materials lying 
around--anybody who gets fissile material can make a weapon 
fairly easily. So this is a major problem. It can blow up the 
world. So I think we have to get at it.
    And the right way to start is what Henry said, is somehow 
to be able to have a different kind of relationship with 
Russia--after all, Russia and the United States have the bulk 
of all the weapons--and then start a dialogue. I will have some 
comments to make about Russia in a minute.
    I distributed two things. Number one is a demographic 
outline, and I want to speak about that. And I also distributed 
a pre-publication book, and I am going to talk particularly 
about two of the articles in the book. One is by T.J. Hammis, a 
retired Marine Corps colonel. He is at the National Defense 
University. Another is by Lucy Shapiro and her husband. Lucy is 
a biologist. Her husband is a physicist at Stanford. Lucy is 
the smartest person in any room she is in and she is also fun. 
So sometime if you were looking for something really good, get 
Lucy to come and testify and you would have a ball but you 
would also learn something. But anyway, I am going to draw on 
these two papers. So you have that book.
    But I think my main point is that there are four major 
forces acting in the world that are going to disrupt it greatly 
and rapidly. And anything we do has to be aware of these 
disruptions.
    The first is demography. And this chart is one of the 
things that just shows you briefly what is happening. You can 
see the blue lines are 2015 to 2035, and then 2035 on out are 
the golden lines. And you can see how things are shrinking 
rapidly. Birthrates are falling. Longevity is rising. In a 
sense we used to think of populations as being a lot of young 
people and a few older people. Now it is totally reversed with 
huge implications.
    I think it is worth also noting the big declines coming in 
the populations of China and Russia. I might say on Russia, 
Russia's economy is not as big as Italy's and it has twice the 
number of people. It shows you how poorly they are running 
their economy, and their population is shrinking. And I think 
in a sense we have Russia playing a weak hand aggressively, and 
we need what I think of as a Pershing moment to put a stop sign 
on that and then get on to talking.
    So I think the first thing to notice is the world 
population is changing. It is getting older. For the most part, 
the places in the world that are seeing big increases in 
population are mostly in Africa and some parts of Asia. These 
are places where there are the big explosions of populations. 
These are also places where the economies are not good and 
where probably adverse conditions are most likely to arise. So 
I think it is almost certain that there is going to be a big 
effort for people to migrate away from those places, and how 
the world is going to handle this large migration--we got to 
start thinking about it. You cannot ignore it. So that is point 
one.
    Point two has to do with governance. We are surrounded by 
information and communications. Information is everywhere. Some 
of it is right. Some of it is wrong. Some of it is put out for 
a purpose. Some of it is just neutral. It is hard to sort it 
out. And diversity is everywhere. People can look at this 
information. They can communicate. They can organize and they 
do. So you have got a lot of government by protest of one kind 
or another. We have to learn all over again how we govern over 
diversity. Just as government is having a hard time, things 
like nuclear proliferation come along that can only be dealt 
with by intergovernmental cooperation. So this crisis in 
government I think is a very important thing to address and try 
to think through.
    The third and fourth big changes have to do with 
technology. The first is artificial intelligence, and the 
second is what is called 3-D printing. It really should be 
called additive manufacturing. But it is a big deal really 
coming hard. So I am going to focus on what is happening with 
this.
    First, let me talk about the economy. What is happening as 
a result of these forces is deglobalization. This is already 
happening. This is not something for the future. The reason is 
that it is becoming more and more possible to produce the 
things you want close to where you are. So the advantages of 
low labor costs are disappearing. And the more you produce 
things near where you are, the less you need shipping and it 
has a big impact on energy and it has a huge impact on the 
countries that are providing low- cost labor and a huge impact 
on places like ourselves which will wind up being able to 
produce these things near where we are. It is a revolution. And 
a revolution in the economy has all sorts of security 
implications that need to be thought about. But this is a very 
big deal.
    Here is just a sample in terms of information: ``Over $700 
billion in capital left developing economies, greatly exceeding 
the $125 billion net outflows during the great recession. In 
contrast, foreign direct investment into the United States is 
growing rapidly. In 2016, FDI flows into the United States 
reached $391 billion, more than double the $171 billion inflow 
in 2014. Outflows in 2016 were only $299 billion. Thus in 2016, 
the United States saw a net inflow of investment capital of 
$192 billion. In 2015, the latest statistics available from the 
Department of Commerce, nearly 70 percent of the FDI was 
invested in the manufacturing sector. This is just by way of 
putting an underline on the point that I was making.
    Robotics, 3-D printing, and artificial intelligence are 
driving manufacturers to reconsider not only how and what they 
make but where they make it. The world is on the very front end 
of a big shift from labor to automation. Robot sales are 
expected to reach $400,000 annually in 2018. This estimate does 
not account for the newly developed cobots, that is, 
collaborative robots. They assist human workers and thus 
dramatically increase human productivity.''
    There are other things about all this that I will go into 
which underline it.
    ``But the new technologies are bringing manufacturing back 
to the United States. The United States has lost manufacturing 
jobs every year from 1998 to 2009, a total of 8 million jobs. 
Over the last 6 years, it regained about a million of them. 
With the cost of living no longer a significant advantage, it 
makes little sense to manufacture components in Southeast Asia, 
assemble them in China, and then ship them to the rest of the 
world when the same item can either be manufactured by robots 
or printed where it will be used. So this is a huge revolution 
taking place. It also underlines the enhanced ability to 
protect your intellectual property because you do not have to 
ship it around'' (``Technological change and the Fourth 
Industrial Revolution.'' Beyond Disruption: Technology's 
challenge to Governance, ed. George P. Shultz, Jim Hoagland, 
and James Trimbie, Hoover Institution Press, 2018).
    So that is the economic side.
    ``Now, fourth, the industrial revolution''--I am reading 
now from Hammis' text--``will drive massive changes in the 
economic, political, and social spheres and will inevitably 
change warfare too. (``Technological change and the Fourth 
Industrial Revolution'').
    So you want to look at the dramatic improvements in nano-
energetics, artificial intelligence, drones, and 3-D printing. 
They are producing a revolution of small, smart, and cheap 
weapons that will redefine the battlefield.
    Open source literature says nano-aluminum created ultra 
high burn rates which give nano-explosives four to ten times 
the power of TNT. The obvious result, small platforms will 
carry a very destructive power. Then you can put these small 
platforms on drones'' (``Technological change and the Fourth 
Industrial Revolution.'' Beyond Disruption: Technology's 
challenge to Governance, ed. George P. Shultz, Jim Hoagland, 
and James Trimbie, Hoover Institution Press, 2018)/ Drones can 
be manufactured easily and you can have a great many of them 
inexpensively. So then you can have a swarm armed with lethal 
equipment. Any fixed target is a real target. So an airfield 
where our Air Force stores planes is very vulnerable target. A 
ship at anchor is a vulnerable target. So you have got to think 
about that in terms of how you deploy.
    ``And in terms of drones, while such a system cannot be 
jammed, it would only serve to get a drone--we are talking 
about getting a drone to the area of where its target is, but 
you would be sure it can hit a specific target. At that point, 
the optical systems guided by artificial intelligence could use 
on-board, multi-spectral imaging to find the target and guide 
the weapons. It is exactly that autonomy that makes the 
technologic convergence of threat today. Because such drones 
will require no external input other than the signature of the 
designed target, they will not be vulnerable to jamming. Not 
requiring human intervention, the autonomous platforms will 
also be able to operate in very large numbers'' 
(``Technological change and the Fourth Industrial 
Revolution''). So that is a revolution in the way warfare will 
be conducted.
    You have all sorts of ways of enhancing the impact of the 
weapon by explosively formed penetrators and by what they call 
bringing the detonator, that is, learning how to hit something 
that has a lot of explosives in it and blowing them up.
    ``Now, the Chinese are very much on to this. The Chinese 
can transport, erect, and fire these fairly large drones, 9-
foot wing span, with a two-person crew. A similar size truck 
can be configured to carry hundreds of Israeli hero size 
drones. Thus the single battery of 10 trucks could launch 
thousands of autonomous active hunters over a battlefield'' 
(``Technological change and the Fourth Industrial 
Revolution''). So the Chinese know how they can--we have bases 
in Japan, airfields. They can take them out. We have got to 
learn how to disperse and change the way you deploy.
    This makes domain denial much easier than domain usage. I 
think there is a great lesson here for what we do in NATO to 
contain Russia because you can deploy these things in boxes so 
you do not even know what they are and on trucks and train 
people to unload quickly and fire. So it is a huge deterrent 
capability that is available and it is inexpensive enough so 
that we can expect our allies to pitch in and get them for 
themselves.
    I might say on cyber--there was some mention of that 
earlier. There is a big problem, but it is important to 
remember that all networks have nodes in the real world. Some 
of them are quite exposed. So we combine that fact with the 
possibility of autonomous drones and maybe you can do something 
about those nodes.
    The creative use of swarms of autonomous drones to augment 
current forces would strongly and relatively cheaply reinforce 
NATO, as I said, that deterrence. If NATO assists frontline 
states in fielding large numbers of inexpensive autonomous 
drones that are pre-packaged in standard 20-foot containers, 
the weapons can be stored in sites across the countries under 
the control of reserve forces. If the weapons are pre-packaged 
and stored, the national forces can quickly deploy the weapons 
to delay a Russian advance.'' (``Technological change and the 
Fourth Industrial Revolution.'')
    What is happening is you have small, cheap, and highly 
lethal replacing large, expensive platforms. This change is 
coming about with great rapidity, and it is massively important 
to take it into account in anything that you are thinking about 
doing.
    Now, let me turn to a completely different aspect of the 
change that is going on. Excuse me for rattling around in my 
papers.
    Now I turn to Lucy's paper. She says, ``breakthrough 
advances in the sequencing, decoding, and manipulation of 
genomes of all organisms are occurring at the same time as 
destructive changes in the world's ecosystem. We are in the 
midst of the sixth grade extension which is predicted to 
culminate in the elimination of about 30 percent of all ocean 
corals''--that is going on now--``sharks and rays, 30 percent 
of all freshwater mollusks, 25 percent of all mammals, 20 
percent of all reptiles, and about 15 percent of all birds 
currently alive'' (``Technological Change and Global Biological 
Disequilibrium.'' Beyond Disruption: Technology's Challenge to 
Governance, ed. George P. Shultz, Jim Hoagland, and James 
Timbie, Hoover Institution Press, 2018). There is a gigantic 
change taking place.
    And tropical diseases are everywhere, and we are not 
getting up to scale on our diagnostics of them and our 
treatment capabilities.
    We also, as Lucy brings out, know how to manipulate genes 
in a way we never have before. So why are we not getting some 
of these mosquitoes that do such much damage and fixing them so 
they do not do so much damage. That can be done. This is all, 
of course, happening as a result of the warming climate.
    As Lucy says, climate change is the cause of the global 
redistribution of infectious diseases'' (``Technological change 
and Global Biological Disequilibrium''). So that is happening.
    So she gives an example here. She refers to the worst 
animal disease pandemic in U.S. history. ``That was back in 
1914-1915 when 50 million domestic poultry in 21 states were 
slaughtered'' (``Technological Change and Global Biological 
Disequilibrium''). How does this happen?
    ``Global warming has shifted migratory bird flight paths 
leading to an overlap of the south to north Asia-Pacific 
flyway, the North American Pacific flyway to the Bering 
Straits. The Arctic waters are warming faster than other 
regions on earth so that the Bering Straits has become a 
meeting and mingling spot for flocks following flyways that 
formerly rarely mixed. DNA sequencing enable identification of 
specific avian flu strains that were hitching a ride in these 
mingling flocks as well as their sites of origin and their 
mutation rates'' (``Technological Change and Global Biological 
Disequilibrium''). So out of all this, we get big trouble.
    Well, so my point--and I will not keep belaboring these 
points, but I think it is quite apparent that what we are 
seeing as a result of technological change in the biological 
area is a new world, a very different world. It is going to be 
de-globalized, and at the same time, there are weapons 
available that will change the battlefield landscape.
    We are on top of these things. So are the Chinese. I think 
the Russians are probably a little less able, but nevertheless 
can get these.
    But going back to the nuclear problem that Henry mentioned, 
somehow we have to get our arms around the nuclear 
proliferation, and the way to do it is to put a stop sign in 
front of Russia and have them come to their senses, then start 
working with them on the nuclear matters, as well as other 
things. From that, we can try to create a kind of joint 
enterprise to work on this issue because it threatens mankind.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Secretary Shultz.
    Secretary Armitage, nice to have you back.

     STATEMENT OF RICHARD L. ARMITAGE, PRESIDENT, ARMITAGE 
       INTERNATIONAL AND FORMER DEPUTY SECRETARY OF STATE

    Mr. Armitage. Thank you, sir. Acting Chairman Inhofe, 
Ranking Member Reed, ladies and gentlemen.
    Now I get it. I know what my job is here today. I am a 
little like that fellow who followed Noah to the podium to talk 
about my experiences in a recent rain shower.
    [Laughter.]
    Mr. Armitage. I do realize that your patience is in inverse 
proportion to the length of my opening statement. I have been 
here before. So if you would allow me to make only three 
points.
    The first, to join my distinguished colleagues to send all 
best wishes and prayers to John McCain. I miss him and I miss 
his voice, and I think it is important that he knows that.
    Second, much to my amazement, the national security 
strategy and the national defense strategy actually comported 
with each other to a very high degree. And this is no small 
chore, no small feat. Having participated in many of those 
historically, they do not often comport. This does.
    But I particularly want to call to note the national 
defense strategy because I think it is a very clear-eyed, well 
written, succinct document that accomplishes things. First of 
all, it accomplishes a direction for the political appointees 
in the Pentagon. They know what the President and the Secretary 
of Defense want. They get it.
    Second, it is a clear guidepost to our uniformed military 
and our bureaucrats--and I mean that term in a positive sense--
who populate our Pentagon and beyond. They know what the 
President's priorities are. And it is also very clear to you as 
authorizers what the President's priorities are. Set curbs, if 
you will, barriers along the street to show you what is 
important and what is not as far as the President and the 
Pentagon are concerned.
    Finally, equally important is what that document does not 
say. It does not say that we face an existential threat today. 
It talks about peer competitors. I am all for competition. And 
if we do our job as a military and diplomats, peer competitors 
will not become adversaries and then enemies.
    To be an existential threat, it seems to me you have to 
have the capability to annihilate the United States and the 
desire to do so. China has the capability. It does not have the 
desire. She has too much skin in the game. Russia has the 
capability. It does not have the desire. She prefers to use 
other methods to undermine the United States in Eastern Europe 
and Ukraine, et cetera. North Korea, Iran, they do not yet have 
the capability and their intention, at least to me, is still 
unknown. Now, the Islamic State of Iraq and Syria (ISIS) and 
terrorist groups, they have got the intention to destroy us but 
they do not have the capability. So we have got to keep our eye 
on the ball, and the ball is to keep our peer competitors from 
becoming enemies and adversaries.
    Thank you.
    [The prepared statement of Mr. Armitage follows:]

               Prepared Statement by Richard L. Armitage
    I am grateful for the opportunity to come before this committee to 
discuss the national security challenges facing our country. I am 
particularly honored to testify alongside Secretaries Kissinger and 
Shultz, two of our nation's leading statesmen. I also want to thank 
Chairman McCain and Ranking Member Reed for their leadership and to 
wish Chairman McCain well in his current fight.
    This hearing examines how policymakers can execute a coherent 
strategy to address the threats facing the United States. 
Unfortunately, the lack of consistency in recent U.S. foreign policy 
has created uncertainty about America's role in the world. According to 
a survey published by the Pew Research Center on June 26, 2017, global 
confidence in the U.S. president fell from 64 percent to 22 percent in 
just one year. Nature abhors a vacuum, so if our competitors believe 
that the United States is stepping back, they will step forward.
    We are already seeing concerning signs about the loss of American 
leadership. A few months ago, Singapore's Prime Minister Lee Hsien 
Loong came to Washington and warned that his counterparts might decide, 
``I want to be friends with both the U.S. and the Chinese--and the 
Chinese are ready, and I'll start with them.'' We must choose whether 
the United States will accept the mantle of global leadership or cede 
that responsibility. For my part, I believe it is critical that the 
United States stay actively engaged to protect our interests around the 
globe.
    Regaining confidence in the United States will require a clear and 
consistent approach to the challenges we face. In this regard, I find 
parts of the recently released National Security and Defense Strategies 
refreshing. The National Security Strategy does not mince words about 
the challenges posed by China and Russia. The National Defense Strategy 
makes its top priority ``the reemergence of long-term, strategic 
competition'' with these states. This message was amplified by 
Secretary Mattis's comment last week that ``Great power competition, 
not terrorism, is now the primary focus of U.S. national security.''
    Inconsistencies lie, however, in the difference between the 
administration's words and deeds. Thus far, the administration's 
approach to both China and Russia has been mixed. Under Xi Jinping, 
China appears to be embracing authoritarian mercantilism. Beijing's 
growing economic and military might have enabled greater assertiveness 
in the South China Sea, more coercive practices against Taiwan, and 
efforts to restructure geostrategic relationships across the Eurasian 
continent. In my view, the administration missed a golden opportunity 
to push back against China's destabilizing activities when the 
President went to Beijing last fall.
    Russia is far less capable than China, but its interference in the 
U.S. elections and its activities in Eastern Europe are no less 
serious. Once again, however, the administration has been far too 
hesitant to call out Russia's efforts to undermine democracy both at 
home and abroad.
    Despite our ongoing efforts, terrorist groups, such as ISIS, will 
continue to present a threat to the United States so long as the root 
causes of terrorism remain. Terrorism is fed by youth bulges, lack of 
opportunity, lack of women's empowerment, lack of political legitimacy, 
ethnic strife, and sectarian rivalry. We will have to continue to 
manage the threat from ISIS and other terror groups by addressing these 
underlying dynamics while also upholding our core values and 
principles.
    The final set of challenges comes from rogue states. Although the 
nuclear deal with Iran has limited Tehran's nuclear capabilities, Iran 
continues to threaten regional security. I believe that the Joint 
Comprehensive Plan of Action should have been followed by a series of 
efforts to force Iran to cease other types of cancerous behavior, such 
as support for terrorism. There is more work to be done in this regard, 
and I urge the administration and members of Congress not to overlook 
this equally necessary approach toward Iran.
    North Korea also embraces an array of destabilizing activities. The 
prospect that Kim Jong-un might be able to launch a nuclear-armed 
missile against the continental United States requires renewed 
cooperation with South Korea, Japan, and others. I believe that 
deterrence and containment are the best approach, as long as they are 
executed in coordination with our allies.
    These challenges are real, but none yet rise to the level of an 
existential threat. An existential threat requires not only the 
capability to threaten our survival, but also the intent to carry out 
that threat. Although China and Russia are the two most capable 
competitors we face at present, I do not believe that they presently 
possess that intent, and it should be our goal to dissuade them from 
doing so. Iran, North Korea, and terrorist groups may desire to 
undermine our system, but they do not yet have the capability to 
threaten our way of life.
    Even without an existential threat to our nation, we cannot sit 
idle while our competitors advance. We must prioritize the threats we 
face and then devote attention and resources appropriately. The 
National Security Strategy and National Defense Strategy set forth 
China and Russia as the top tier concerns, but it remains to be seen 
whether the administration is capable of working with Congress to pass 
a defense budget that reflects this prioritization. Such an effort will 
be critical to the United States' strategic standing.
    We must also engage more deeply with our allies and partners. 
President Eisenhower once noted, ``We could be the wealthiest and the 
most mighty nation and still lose the battle of the world if we do not 
help our world neighbors protect their freedom and advance their social 
and economic progress.'' This is as true now as it was then, and we 
must be vigilant that this basic underpinning of our national security 
is not lost to the forces of isolationism.
    It also is unclear whether the President himself will support the 
approach that his administration has identified. Although the National 
Security Strategy discusses the importance of ``pursuit of shared 
interests, values, and aspirations,'' the President has at times 
undermined these concepts.
    My view is that the United States must maintain a leadership role 
in the world both in word and deed. The United States--along with its 
allies and partners--has the strength, wisdom, and experience to lead. 
The world needs a renewed U.S. commitment to global security, 
prosperity, and values. The time is now for our leaders to take on the 
mantle of leadership, and I look forward to discussing with you how the 
United States might do so.

    Senator Inhofe. Thank you, Mr. Secretary.
    We have a full house here and so I am going to be very 
brief. But one of the things that came across very clear from 
all of you, comparing our problems today with the problems of 
the past. We have threats that we have not had before. All of 
you have served with Director Clapper, the former Director of 
National Intelligence. The quote that he has given us--and I am 
sure you are aware of that--``looking back over now more than a 
half century in intelligence, I have not experienced a time 
when we have been beset by more crises and threats around the 
globe.'' And then we have our Chairman of the Joint Chiefs of 
Staff who even suggests that we are losing our qualitative and 
quantitative advantage. So it is very frightening.
    So I would just like to ask each one of you. Secretary 
Armitage, you were very specific on the national defense 
strategy that came out from President Donald Trump and 
specifically the two-three strategy. Would anyone like to 
elaborate any more on their support or non-support of that 
strategy that just came out in January 2018?
    Dr. Shultz. Like Rich, I am very impressed with what they 
laid out, but I think it does not adequately address the fact 
of the huge change that is taking place in de-globalization and 
a new kind of weaponry that is coming about and what the 
implications of that are. Those things need to get factored in. 
I am sure they will.
    We had the privilege of having Jim Mattis at Stanford's 
Hoover Institution for about 3 years. His office was around the 
corner from mine. So whenever I would see his light on, I would 
go, sit down, and start talking. He is one wonderful man. He is 
smart. He is into everything. He knows what is going on. If you 
ask him his opinion, he tells you what it is right between the 
eyes. There is no ambiguity about it.
    Senator Inhofe. I think you both do that.
    Dr. Shultz. He is a jewel and I am sure he is into all 
this.
    Senator Inhofe. Any other comments on the two-three? Yes, 
Secretary Armitage.
    Mr. Armitage. Yes, sir. Two comments.
    First of all, on the qualitative and quantitative edge that 
we are losing, well, is it no wonder? We are marching and 
countermarching all up and down Europe, Afghanistan, and Iraq 
for a long time. We really run these folks ragged in my view. 
Africa now. So it is no question that we are losing our 
training edge, our qualitative edge. The equipment is being run 
into the ground. So I think the military leadership of the 
United States, the Secretary of Defense, and you all ought to 
think through this problem to make sure that we are deploying 
people that we really need to deploy and we are keeping people 
at home that we need to keep at home.
    Second, I want to dispute to a tiny degree the fact that 
this is the messiest and most disorderly world we have ever 
seen. I think with 40 million refugees after World War II and 
40 million dead, someone might say no, it was pretty bad. Here 
is a man who participated in the Pacific in that conflict, and 
he can tell you personally. So it is messy and it is 
disorderly, but is it the worst it has ever been? I am not 
sure. Maybe it seems worse because there are questions in the 
international community about whether the United States is 
going to take our traditional lead as we have for the past 70 
years.
    Senator Inhofe. And while you have the floor, just one 
brief answer to this on the nuclear strategy. We have had a 
hearing recently and it has been obvious to everyone--and you 
all three remember this--that China and Russia have been 
modernizing their nuclear arsenals while we have been sitting 
around not doing anything on ours. If you look at our nuclear 
triad, all three legs are aging. Do you have any comments to 
make on your recommendation as to what we should be doing right 
now? Any one of you.
    Dr. Shultz. I am a great believer in the tremendous 
importance of getting rid of nuclear weapons, but I think the 
way to do that is, as long as there are nuclear weapons, the 
United States must have a robust, secure, and safe arsenal to 
use for deterrence and for a basis from which to negotiate 
down.
    Senator Inhofe. We really have not been doing any 
modernization since you guys were at the helm. So that is the 
only point I wanted to make. Do you agree with that?
    Dr. Shultz. Well, I read what I guess was an early 
version--somehow it was sent to me--of the national security 
strategy. And I liked the beginning of it because it talked 
about our commitment to getting rid of nuclear weapons. But as 
you read on, it almost sounded a little bit as though there 
might be this or that occasion where we would use nuclear 
weapons. And this notion of using them that is spreading around 
is deeply disturbing to me because of the consequences.
    You remember the Chernobyl nuclear power plant accident was 
vast damage. I remember the first meeting I had with Gorbachev 
after that. I found that he had asked the same question I had. 
What is the distinction between what happened at Chernobyl and 
what would have happened if a nuclear weapon had been dropped 
there? Answer: nuclear weapon much more devastating. So you 
could sense the utter destructiveness of these things.
    Senator Inhofe. Senator Reed?
    Senator Reed. Thank you all, gentlemen, for the 
extraordinary testimony and again for your service to the 
nation. All have reflected the importance of diplomacy and also 
the multifaceted challenges we face. They are not simply in the 
military dimension. There are environmental issues. There are 
demographic issues. Secretary Shultz has made that very clear.
    Can you comment--and you might begin, Secretary Shultz, and 
then I will ask Secretary Kissinger and Secretary Armitage. Our 
whole-of-government approach to these problems--is it adequate 
at the moment?
    Dr. Shultz. Well, it has been over a quarter of a century 
since I have been here. I come occasionally to testify. But 
what is going on--I know having run four departments, that if 
you are not there, you really do not have a good idea of what 
is going on.
    But I think the challenge is really tremendous to 
coordinate efforts and they need to certainly be coordinated. 
And my impression is--it is an impression--that since the 
Defense Department people can actually go and do something, 
there is a tendency to rely on them probably more than we 
should and we should delegate other people to do more of their 
share. But that is just an impression.
    Senator Reed. Thank you.
    Dr. Kissinger, do you have any comments about the whole-of-
government approach in terms of how well we are doing?
    Dr. Kissinger. The challenge we face at this moment is 
determining what our national objectives are and how to reach 
them in a strategic manner. The Defense Department statement 
about our objectives seems to me very adequate and expresses 
the necessity. But I would like to point out as a student of 
history that if one relies entirely on abstract military 
planning without having thought through the political 
consequences, one may find oneself in an irreversible position. 
None of the leaders who started World War I would have done so 
if they had known what the end result would be like. So when 
weapons are being procured, which in principle I favor 
strongly, one should also relate them to a military strategy 
that one is prepared to implement, and a diplomatic strategy 
that looks for the creation of a system of world order by which 
you can determine the nature of the challenges and the extent 
to which they can be opposed.
    On the diplomatic side, I think we need a more systematic 
approach to what we are attempting to do. On the military side, 
I support what the Defense Department is trying to do. And I 
agree with the objectives that have been stated with respect to 
North Korea and with the Middle East, but they have been, up to 
now, conducted in a fragmentary rather than a coherent manner.
    Senator Reed. Thank you, Dr. Kissinger.
    Secretary Armitage, please.
    Mr. Armitage. Just briefly, sir. The whole-of- government 
sounds great, but in order to have a whole-of- government 
approach, you have to have buy-in by all the leadership and you 
have to have an inventory of what your arrows are to put in 
your quiver. I do not think we have got that.
    Second, you have to have resources, and it does not seem to 
me you can have a whole-of-government approach if you resource 
the State Department in an insufficient way. If it was not for 
the Congress, we would be down 30 percent in the State 
Department instead of the 10 percent that the State Department 
is down now.
    Finally, the whole-of-government approach has to embrace 
friends and allies. For us to do everything alone is wrong in 
my view. So it has to be seen that a whole-of-government is 
also diplomacy, is also getting coalitions together of allies, 
likeminded people, et cetera.
    Senator Reed. Thank you very much.
    Dr. Shultz. I think that was a very important point that 
Rich made. It is not only us but our allies that we have to 
work with.
    Senator Reed. Thank you all very much.
    Just a point. You have all signaled that the proliferation 
issue is absolutely critical, and Korea, if it continues on its 
projection, raises huge proliferation problems. That may be a 
way in which we can get the Chinese and the Russians and us to 
work together because my sense is that they too fear a 
proliferation problem. But I will leave that to the next round, 
if there is a next round.
    Thank you.
    Senator Inhofe. Senator Wicker?
    Senator Wicker. Thank you, gentlemen. This has really been 
wonderful, very, very valuable to members like me.
    Dr. Kissinger, let me ask about NATO in a statement that 
you made. After you follow up, I will ask our other two 
witnesses to comment. You say NATO needs to be clear about its 
strategic purposes. What outcomes other than violations of 
territorial integrity does NATO seek to prevent? What do you 
suggest should be the answer to that question among NATO 
members?
    Dr. Kissinger. The challenge that NATO faces now seems to 
me to be this. For 300 years, Europe was the designer of the 
international system and provided the leadership in the 
structure of the world, the United States in those periods 
standing apart. At the end of World War II, Europe was 
devastated, and the United States undertook the leadership of 
bringing together these various nations and guaranteeing their 
territorial integrity. The challenge was primarily conceived to 
be from the Soviet Union as a military attack on Europe.
    Europe under the Marshall Plan recovered economically its 
capacity to act as a civil society. But it has not regained its 
leadership in international politics. Therefore, at the same 
time, the challenges have altered from the attack from the 
Soviet Union to a series of crises around the world that have 
potential dangers but not immediately overwhelming dangers. So 
it requires a higher degree of assessment.
    So NATO has constantly been faced with a series of what are 
called out-of-the-area problems which are central in many ways 
to the overall equation but not central to how they conceive it 
domestically. So it is important, and I support strongly the 
Trump administration in that effort to give Europe a more 
active role in some of the issues that I outlined with my 
colleagues.
    Senator Wicker. Is Ukraine one of those out-of-the- area or 
in-the-area problems? And what is the definition of success 
there, sir?
    Dr. Kissinger. That is exactly the issue. For Russia 
historically, Ukraine has been part of their territory at least 
for 400 years. On the other hand, it is tied in many respects 
to Europe. So I personally, which is a minority view--I have 
thought it was unwise to try to include Ukraine in NATO, but it 
is also impossible to let it exist as a satellite of Russia.
    So the way I express that issue is this. If the security 
border of Europe is the eastern border of Ukraine, it is within 
300 miles of Moscow and will create tensions with Russia. If it 
is on the western border of Ukraine, it is at the border of 
Poland, Hungary, Romania, the Baltic States, and that is 
unacceptable for Europe and the United States. So, therefore, 
is it possible to have a Ukraine solution in which Ukraine is 
free in the political and economic field to relate itself to 
its preferences, something like Finland, without the NATO 
participation?
    In any event, Russia has to adhere to the Minsk Agreement 
because it cannot claim Ukrainian territory by force. But 
Ukraine is sort of at the borderline of this conception. It 
should be politically and economically where it wants to be. 
The question is can one think of a military arrangement there 
that is not directly confrontational.
    Senator Wicker. The chair has told me that I can ask one of 
you to follow up. So, Mr. Armitage, would you care to follow up 
on that?
    Mr. Armitage. From my point of view, Senator, the most 
important thing that we can do for NATO, first of all, is make 
sure they have a full understanding of the ironclad nature of 
NATO's Article 5, the affection that we have for article 5. And 
we have to be credible in that. In return, it seems to me NATO 
has got to do something. It is not just 2 percent of GDP. I 
read recently that the British have no warships right now, that 
they are outside of their ports. They are in post. I think I am 
correct to say the German submarine fleet is either inoperable 
or nearly so. This is not acceptable. So in exchange for an 
article 5 commitment by the United States, I think we have got 
to get a commitment that they will stand up their capabilities.
    Senator Inhofe. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you all very much for being here and for your 
years of service to the country.
    Dr. Shultz, I could not agree more with the discussion 
about the impact of technology and artificial intelligence and 
how that will affect warfare.
    My concern is, as we look at the potential for change in 
that area, how do we engage with the defense industrial base, 
which has been I think sometimes reluctant to acknowledge the 
need to move. And when we have weapon systems that are very 
expensive and have started down the road to development, how do 
we make that switch in a way that allows us to keep up with 
this evolving technology?
    Dr. Shultz. Well, I suppose we have to start taking action 
and creating our banks of 3-D printers and start using them. 
And the obvious fact that small, cheap, and many is better than 
a few very expensive and vulnerable--just that logic has to 
pervade and we have to change.
    Senator Shaheen. I share the concern about nuclear 
proliferation and where we are now and what appears to be 
moving closer to a nuclear war in some way. Not just in how we 
respond to what is happening in North Korea but as we look at 
modernization of our nuclear weapons, the move to smaller nukes 
and this whole Russian idea that has been put forward that we 
can escalate to deescalate by the use of small nuclear weapons. 
How should we think about responding to that threat? Because 
that does seem to be gaining some credibility in military 
circles.
    Dr. Shultz. Well, a nuclear weapon is a nuclear weapon. You 
use a small one. Then you go to a bigger one. I think nuclear 
weapons are nuclear weapons, and we need to draw the line 
there. And one of the alarming things to me is this notion that 
we can have something called a small nuclear weapon, which I 
understand the Russians are doing, and that somehow that is 
usable. Your mind goes to the idea that, yes, nuclear weapons 
become usable, and then we are really in trouble because a big 
nuclear exchange can wipe out the world.
    I have a great friend in San Francisco named Bill Swing. He 
is the retired Episcopal bishop of California. And he started 
something really terrific called the United Religions 
Initiative. And he made a statement about a year ago. I tried 
to get him to publish it, but he would not do it.
    But he said when you put your hand on the Bible and swear 
to be President of the United States, that is the least of it. 
When you put your hand on the nuclear button and you can start 
something that might kill a million people, you are not 
President anymore. You are God. And who are we to say we are 
God?
    The weapons are immoral, as President Reagan said many 
times. And we need to get rid of them.
    Personally I think the way to get rid of them is, on the 
one hand, maintain our strength of our arsenal, but then we 
need to somehow get rearranged with Russia.
    Personally I am very interested in Henry's comments on the 
Ukraine, but Russia signed an agreement when Ukraine got rid of 
its nuclear weapons that it would respect Ukraine's borders. 
They signed that. They totally ignored it. They do not even 
refer to it. We should not accept that. And it seems to me with 
these new kind of weaponry, we can change the situation in 
Ukraine and maybe that is the place where we could have what I 
call a Pershing moment.
    A Pershing moment for me is in the Cold War, the Soviets 
had intermediate range weapons that could hit Europe, Japan, 
and China, but not us. Their diplomatic ploy was that we would 
use our intercontinental missiles to defend our allies and risk 
using their intercontinental missile on us.
    So we had a deal with NATO that we would negotiate, and if 
we could not agree, we would deploy intermediate range weapons 
in Europe. And we knew we were negotiating just as much with 
Europeans as we were with the Soviets because putting a nuclear 
weapon on your territory is not very comfortable.
    At any rate, the negotiation was conducted. President 
Reagan did a very good job on it. When we came to the end, we 
deployed cruise missiles in Britain with Margaret's help and in 
Italy with Andreotti's help.
    But then came the big deal. Ballistic missiles were called 
Pershings in Germany. And here is where the alliance came in. 
Everybody supported the Germans. It was very controversial. The 
Russians pulled out of negotiations. They did everything to fan 
war talk, but the Pershings got deployed. That was the turning 
point in the Cold War, and it showed the Russians something 
special.
    There was a little side story if I could just take a 
minute. Nancy Reagan was my pal, and she was to fix me up with 
a Hollywood starlet at a White House dinner. So I got to dance 
with Ginger Rogers and stuff like that.
    But anyway, after the deployment of the Pershings, 
gradually things softened. And I could go to the President and 
say, Mr. President, out of four different capitals in Europe, a 
Soviet diplomat has come up to one of our embassies and said 
virtually the same thing, which we think boils down to--Gromyko 
was invited to Washington. When he comes to the general 
assembly in September, he will accept. In other words, the 
Soviets blinked.
    I said maybe you want to think this over because Jimmy 
Carter canceled these when they went into Afghanistan and they 
are still there. He said I do not have to think it over. Let us 
get them here. So it was a huge event.
    And I went to Nancy and I said, Nancy, what is going to 
happen is Gromyko is going to come to the Oval Office. We will 
have a meeting, probably a fairly long one, and we will all 
walk down the colonnade to the mansion that is your home. And 
there is some stand-around time in their working lunch. So it 
would be a nice touch if you were there for the stand-around 
time. You are the hostess. It would be warm. So she agreed.
    So Gromyko, as soon as he sees Nancy, knows she is 
influential. So he makes a beeline for her. And before long, he 
says does your husband want peace. And Nancy said, of course, 
my husband wants peace. Then he said, well, then every night 
before he goes to sleep, whisper in his ear, ``peace''. He was 
a little taller than she was. So she put her hands on his 
shoulder and pulled him down so he had to bend his knees. She 
said I will whisper it in your ear, peace. I said, Nancy, we 
just won the Cold War.
    That was a Pershing moment, and I think we need another 
Pershing moment to get the Soviets to see there is a stop sign 
here and there is another path to peace. After all, they are 
staggering. Their economy is a mess. Their demography is a 
mess. They have really tough troubles in the Caucasus. So a 
different arrangement would benefit them greatly. Then we could 
start once again down the road talking about nuclear weapons. 
This time maybe we can have a inclusive joint enterprise of 
some kind to really get after this subject.
    Senator Shaheen. Thank you.
    Senator Inhofe. Senator Cotton?
    Senator Cotton. Thank you, gentlemen, for your appearance 
today and your service to our country, not least in your youth 
in the armed forces of the United States.
    Dr. Kissinger, I want to return to a point that you raised 
in your opening statement as well as your written testimony. I 
will just repeat it. You point out a paradox, a possibility 
that in North Korea, as in Iran, an international effort 
intended to prevent a radical regime from developing a 
destabilizing capability will coincide diplomatically with the 
regime perfecting that very capacity for the second time in a 
decade. An outcome that was widely considered unacceptable is 
now on the verge of becoming irreversible.
    Would you elaborate on why you think that is the case and 
what we could learn from the situation?
    Dr. Kissinger. With respect to North Korea, it is the idea 
that there might be a negotiation based on a freeze for freeze. 
The concern I had with the Iranian agreement was that it 
legitimized the eventual emergence of Iran as a nuclear power. 
It only delayed it by some years. The situation with North 
Korea is even more acute because Iran did not yet have a 
nuclear weapon, but if one negotiates a freeze of the existing 
situation, one has thereby legitimized a Korean military 
capability. If that is established, other countries in the 
region, confronting their own security problems, are likely to 
come to the conclusion that it is safe to proceed with their 
nuclear programs. That then we would face a totally new 
situation where in a region in which there are considerable 
tensions, there is also an accumulation of nuclear weapons. 
Once that line is crossed, as George Shultz pointed out, you 
are then in a world in which we have no experience about 
escalation, where it is difficult to establish the principles. 
This would then start, in my opinion, a sequence of events in 
which some countries would resist this and other countries 
would insist on it.
    So, therefore, I think the denuclearization of North Korea, 
which is not a direct, overwhelming threat to us, is important 
for the evolution of the international strategy with respect to 
nonproliferation. Therefore, we need to make a distinction 
between measures that might relieve the immediate tension make 
an ultimate crisis all the more severe and measures that need 
to be taken or could be taken to face the issue of the 
denuclearization of Korea. All the more so, the problem of Iran 
is just down the road under the existing deals. That is my 
basic point.
    Senator Cotton. Thank you.
    Dr. Shultz, in your conversation about four disruptive 
forces, the first one you mentioned was demography and 
migration. Another eminent historian, Walter Russell Mead, who 
has testified in front of this panel before, published an op-ed 
in the ``Wall Street Journal'' a couple of days ago stressing 
that even though has been a source of controversy in United 
States, on which we understandably focus as Americans--we just 
had a 3-day government shutdown about immigration. The issue 
was a very contentious one in our campaign. It also is very 
contentious in Europe. In the elections in Germany last year, 
the SPD and the CDU had their lowest performance since World 
War II. Alternative for Germany, one seat in the Bundestag for 
the first time. And we have seen the rise of similar parties 
and politicians in Sweden and Austria and Czechia, Slovakia, 
Poland, Hungary, and so forth.
    What ought Western leaders be doing to better manage the 
challenges posed by demographic change in migration patterns?
    Dr. Shultz. I should think the first effort should be to do 
everything we can to see that the places people are coming from 
are made more habitable so they do not leave. And we have lots 
of things that we could do that would accomplish that goal.
    But then we have to reflect in our own case how beneficial 
immigration has been for this country. I went to a session in 
San Francisco the other night where we were celebrating our old 
mint there, and it was Alexander Hamilton's birthday. We were 
all talking about how wonderful Alexander Hamilton was as the 
first Secretary of the Treasury. He was an immigrant. Henry 
Kissinger is an immigrant. Einstein was an immigrant. So we 
have benefited greatly. I dare say everybody in this room is 
either an immigrant or descended from one.
    So we need to be looking carefully at our borders and have 
a sensible immigration policy. People in these places--there 
may be people that are perfectly okay for us. But I think the 
first thing is to do everything possible to help them have 
places where they want to stay.
    Senator Cotton. Thank you all, gentlemen.
    Senator Inhofe. Senator Heinrich?
    Senator Heinrich. Thank you, Chairman.
    Secretary Shultz, you mentioned the coming changes from 
artificial intelligence, from additive manufacturing. And 
another rapidly changing part of our world, as you know, is the 
energy field. And you have been a strong voice for American 
leadership, a conservative voice for addressing climate and 
energy. But at the moment, we find ourselves in a position 
where the White House has obviously pulled back from the Paris 
Accord. They are implementing protectionist policies with 
regard to clean energy deployment in our country.
    So I am curious as to your thoughts on what you believe 
America's posture with regard to climate leadership in the 
world and implementation of a clean energy strategy should look 
like.
    Dr. Shultz. Well, just as we have a threat throughout the 
world from nuclear weapons, we have a threat that is global 
from the warming climate. The paper by Lucy Shapiro that I read 
from shows on the biological side some of those threats, but 
there are many others.
    I think there are two things that should be done that will 
help a lot.
    Number one, a lot of people object to all these 
regulations, the government telling you to do this, do not do 
that, and so forth. All right, let us get rid of all that. Let 
us put in place a revenue neutral carbon tax. Put a price out 
there and let the market decide. So in the program that I have 
been working on with Tom Stevenson, who is here, we would start 
with a $40 a ton tax and make it revenue neutral. So you would 
pass the money back to, let us say, everybody who has a Social 
Security number. So they would make it a progressive tax and it 
would not have any fiscal drag. It would sort out people and 
get them to pay incentives they need to go for things that are 
low in carbon.
    The other thing that I think is very important is to 
maintain a respectful government program supporting energy 
Research and Development (R&D). And it does not have to be 
huge. I am the chairman of MIT's Energy Advisory Board. They 
have a big program at MIT, and I have more or less the same 
role at Stanford. So I listen to what these guys are doing. And 
the R&D results are dramatic. As a result of their R&D, our 
solar costs are way down. Fracking was a result of R&D. And 
this can be very productive. So we want to keep that going.
    A while ago we had an exchange at these two universities. 
We brought about 12 MIT scientists to Stanford, and we had 
about the same number. We had 2 days of talk about what we 
called game-changers. And at MIT, we did the same thing.
    Then we came to Washington and John Boehner, who was then 
Speaker, set us up with the Republicans on the House Energy 
Committee. These are supposed to be the bad guys. It turned out 
that selling them energy R&D was a piece of cake. And somebody 
said, here is a great idea. Let us have the government go into 
business and exploit it. You lost everybody, including me. So 
let us have the government stay out of the business but support 
the energy R&D. And I think that has broad support.
    There are things that are on the cusp right now that are 
very important. Of course, the holy grail is to get to a large 
scale storage of electricity. If we can do that, not only would 
you have an impact on solar and wind in the intermittency 
problem, but you also have some security because our grid is so 
vulnerable to attack. If we have some storage, to rely on that, 
that would be good.
    But anyway, the R&D is very important. You pair R&D with a 
revenue-neutral carbon tax and I think you have the kind of 
program that will work.
    Senator Heinrich. Thank you for your thoughts on that 
subject.
    My next question is for any of you to address. I am really 
concerned about some of the statistics we are seeing out of the 
State Department right now in terms of being able to attract 
talent and losing folks from that pool at rates we just have 
not seen before. You know, just attracting people for entry 
level positions--we are at about a quarter of what we were a 
couple of years ago. There are problems with the seasoned pool 
as well.
    What should we be doing to address that?
    Mr. Armitage. I will give it a go, Senator.
    The A-100 class, or the entry classes that we have in the 
State Department are down. People read the papers. They hear 
the news. They think they are not particularly welcome in the 
Trump administration.
    But the real impact of this of what is going on now will 
really be felt in about 15 years. As Deputy Secretary, I had a 
chair of the D Committee. The D Committee makes the decisions 
on who we are going to put forward as ambassadors to different 
posts. And I was having trouble toward the end of my tenure as 
Deputy Secretary because of a previous slowdown in the 
accession to the State Department, the A-100 class. We did not 
have a sufficient number of head and shoulders diplomats that I 
felt comfortable putting into leadership positions.
    So we have got to change the attitude. I think that 
attitude needs to start with our President and stop talking 
about deep state and taking ownership of everything. Anyone who 
served in the military--Senator Reed will tell you this--we 
learned everything we ever needed to know in the first general 
order, which cautions young sentries to take charge of all--
this post and all government property in sight, and stay on 
this post. That is all you need to know. And that is the 
position I think our President has to take and our Secretary of 
State has to take.
    Dr. Shultz. I would like to say a word not only on behalf 
of the Foreign Service, but the career people generally. In 
1969, I became Secretary of Labor, and I was told that it was 
an impossible job for a Republican because the Labor Department 
staff was a wholly owned subsidiary of the American Federation 
of Labor and Congress of Industrial Organizations (AFL-CIO). We 
brought in a really top notch bunch of people and the 
bureaucracy knocked themselves out for us. We made friends with 
George Meany, but still they were there to serve.
    I found the same thing when I was Director of OMB, same 
thing in the Treasury, the same thing in the State Department. 
The Foreign Service people are able, they are trained, they are 
experienced. They have been worked with, particularly by the 
Director of Foreign Service, to move them around to get the 
right kind of experience. They are invaluable.
    I agree particularly with Rich's point. The future is the 
new people, and it takes time to bring them in, to train them, 
and to give them experiences. You cannot learn from just 
reading something. You have got to have experience, move around 
and learn things from that. So it is essential.
    Dr. Kissinger. I would like to make a point here.
    I agree what George Shultz has said about the quality of 
the Foreign Service and also what my other colleague had said 
about the impact of current decisions 10 years down the road.
    But I do think the State Department needs a combination of 
reorganization and rethinking in one respect. The military are 
used to deal with strategy because they have to have an 
ultimate objective. So the Pentagon is organized to make 
decisions in a conceptual framework. The State Department is 
more organized to have conversations. Various officials and 
Foreign Service officers in their experience abroad much of the 
time have to deal with immediate, current problems, and so they 
have a tendency to look for the immediate solution and not so 
much for the strategic outcome. Of course, there are great 
exceptions.
    So I would think a reorganization of the State Department 
that leads more systematically to strategic thinking and less 
preoccupation with the very immediate problems would be highly 
desirable. And it is no reflection on the people that are there 
now. That has to do with the nature of foreign policy as it has 
evolved.
    Dr. Shultz. Would that not mean, Henry, to do everything 
you can to improve the stature of the policy and planning 
staff? That is, they are supposed to be the people thinking 
strategically with the Secretary. And through the years, there 
have been some outstanding times of that, some not so good, but 
that is a key ingredient.
    Dr. Kissinger. Well, I tried to solve the problem to some 
extent by making sure that every action decision also went 
through the policy and planning staff, that the Department 
understood this. But I also think in the training of the 
Foreign Service officers and in the issues which they are asked 
to address, there is some more systematic opportunity to deal 
with grand strategy in addition to what they already do well, 
which is the day-to- day management.
    Senator Heinrich. I am afraid, Mr. Chair, we could use some 
lessons in short-term versus long-term strategy as well.
    Senator Inhofe. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, thank you all for your very distinguished 
service to our country.
    I am just curious. I would like to begin with Secretary 
Shultz and then if either of you other gentlemen have a thought 
on it, I would appreciate it.
    With regard to nuclear deterrence and the approach that we 
have taken specifically with regard to Russia, there appears to 
be a thought within the Russian military that there is an 
interest in being able to escalate in order to deescalate and 
the use of low-yield nuclear weapons in some cases, 
particularly in their region. My question is in your analysis, 
which is the greater deterrent force that should be brought to 
bear. Should we have the overwhelming force of a high-yield 
capability only, or should we have both the high-yield 
capability as well as the ability to respond in like kind? 
Would the Russians take the threat of an immediate retaliation 
to be greater if we had both options available to us?
    Dr. Shultz. Well, as I said earlier, it seems to me the 
idea of a low-yield nuclear weapon is kind of a mirage. It is a 
nuclear weapon. It has all kinds of aspects to it. Even a low-
yield weapon would have huge damage immediately and radiation 
and so on. It invites escalation. So my own opinion is I hate 
to see people start figuring out how they can use nuclear 
weapons--that is what it amounts to--because their use is so 
potentially devastating. You get an escalation going and a 
nuclear exchange going, and it can be ruinous to the world very 
easily.
    Senator Rounds. Would you disagree with an analysis that 
concludes that Russia would actually use a low-yield nuclear 
weapon as a response to a conventional conflict?
    Dr. Shultz. What the Russians will do I do not know. I read 
that they are developing what they call a low-yield weapon. I 
think it is a mirage. But if they wind up using one, it is 
going to lead to an escalation, and maybe the best deterrent is 
for them to know that.
    But I think the better way to go about it with Russia is to 
put a stop sign to the kind of thing they have been doing and 
say, now let us get back to where we can talk together in a 
sensible way. And we were able to do that before and we had 
very fruitful exchanges with the Soviets, not just with Mikhail 
Gorbachev but across the board and we got a lot accomplished as 
a result. And I think if we were able to get back to that kind 
of thing, then this time we could reach out to others and try 
to really move the ball ahead on getting rid of these weapons.
    Senator Rounds. Thank you.
    Mr. Armitage?
    Mr. Armitage. Just a historical tidbit, sir. We actually 
manned portable nuclear weapons at one time in our inventory, 
but we came to the conclusion that a nuclear weapon is a 
nuclear weapon. We also had a great deal of success, Secretary 
Shultz particularly, in the INF discussions in 1983 with the 
Germans when we wanted INF weapons, tactical nukes to blunt a 
Soviet thrust through the Fulda Gap. So this has been up and 
down the flagpole several different times, and I think the 
Russians and the Americans come to the same conclusion. A 
nuclear weapon is a nuclear weapon. You cannot control it.
    Senator Rounds. Thank you.
    I am just curious. Today we have talked about a number of 
different locations that are hotspots today. We have talked 
about Europe. We have talked about the South Pacific with 
China, the Middle East. And yet, during this entire discussion, 
there has been no discussion about the continent of Africa or 
the continent of South America. I am curious in regard to our 
diplomatic efforts and so forth and the opportunities that are 
there. I think about it because I know that Senator Inhofe has 
been one of those individuals who has been very active in 
Africa, having made 156 different country visits to Africa that 
I am aware of. The emphasis that is there--it seems to me that 
we are wide open for the opportunity for not only goodwill but 
for the creation of cooperative partnerships there in both 
South America and in Africa. I would like your thoughts in 
terms of the importance of those two continents and why it is, 
in the middle of a strategic discussion, we have not mentioned 
either one of them so far.
    Dr. Shultz. I think your point is right on. As I said 
earlier, I think in the African countries, that is where the 
explosion of population is likely to come from, and I think, 
for various reasons, that is where the migration is likely to 
come from. If we have constructive relationships there, maybe 
we can help create the conditions where people are less anxious 
to leave, and that is, I think, probably the best way of 
dealing with the migration issue. So I agree with you.
    As far as South America and Central America and Mexico are 
concerned, I remember when I took office, President Reagan 
said, foreign policy starts in our neighborhood. If you buy a 
house, you look at the house, but you also say what is the 
neighborhood. And if it is a good neighborhood, you will buy 
the house. If it is not, you will not.
    So we worked very hard to bring Mexico into North America, 
and finally with NAFTA, Mexico became part of North America. 
And that worked wonderfully not only in economic terms but it 
gave you the basis for talking about many, many other things: 
terrorism problems, environmental problems, all kinds of little 
issues that come along. You develop a friendly, easy-handed 
relationship. The three amigos comes to mind.
    So all of this is very positive about our neighborhood, and 
it has been a very hard thing for me to see us denouncing 
Mexico and trying to break it up because this is our 
neighborhood. This is where we live and we are working well. 
And we worry about--we say, oh, their drug gangs are coming 
over here. Where do the drug gangs come from? They come from 
the war on drugs in the United States. That is where the money 
comes from. That is where the guns come from. That is where the 
incentive comes from. So I think we ought to look at the war on 
drugs ourselves, and what we are doing. At the same time, 
obviously, our neighborhood deserves attention and not just 
Mexico but Central America and South America. There are some 
good things happening, some bad things happening down south, 
but this is where we live.
    Senator Rounds. Thank you. My time has----
    Dr. Kissinger. Could I make a point on the nuclear weapons 
issue?
    Senator Rounds. Yes.
    Dr. Kissinger. I have been part of this discussion since 
1950, and my original reaction to the problems of massive 
retaliation was to see whether tactical nuclear weapons might 
provide a substitute or an alternative. And at that time, I 
came to the conclusion that has been presented here that the 
distinction could not be drawn in any manner that was workable 
at the time.
    Now we are moving into an area in which apparently 
relatively smaller tactical weapons are being considered by 
opponents. It is not a course I would recommend as our 
preferred solution. But the issue will arise if this happens, 
if this becomes the technology, and if our only response then 
is an all-out nuclear war, that we will face again the same 
dilemmas we had with the massive retaliation concept.
    So while I would like to maintain a dividing line between 
nuclear and non-nuclear weapons and while it would be highly 
desirable if some agreements could be made to enforce this, if 
the technology develops in such a way that other major 
countries possess them, we should think carefully before we put 
ourselves in a position where our only response is an all-out 
nuclear strike.
    Senator Rounds. Thank you, gentlemen.
    Senator Inhofe. Senator King?
    Senator King. Thank you, Mr. Chairman.
    Dr. Kissinger, it is an honor to have you here and thank 
you for your service and providing wisdom today.
    Mr. Armitage talked about China having the means but not 
the desire to attack us. My question is to you, based upon your 
long years of study of China and the book you wrote on China, 
what does China want?
    Dr. Kissinger. Of course, this develops out of a long 
culture. This is my assessment based on my observations.
    We in the Western tradition think that for a country to be 
dominant, it has to conquer regions and occupy them. I think 
the Chinese historical view is that the Chinese, while they 
will use force, are thinking that their impact is through the 
magnitude of their culture, the signs of their achievements, 
and that they will attempt to impose respect rather than do it 
through a series of military confrontations. But it will also 
be backed by a force with which they can demonstrate the 
penalty of opposition.
    So if you look at their conflicts in the communist period 
with India, with Vietnam, and to some extent with us, they have 
always been aimed at some dramatic demonstrations, followed by 
some negotiation that then benefits.
    So I think the Chinese at this moment are proceeding by 
their cultural pattern. The Belt and Road concept is an attempt 
to restructure Eurasia but not entirely or largely by military 
conquest but through a performance that will lead these 
countries to look at China as the central kingdom. For us, the 
problem is hegemony by any one country over Eurasia is a 
potential threat to our security.
    So the issue in my mind is, is it possible to have such a 
competition by political means with the backing of the military 
force that may be needed? But for that, we first have to know 
what we consider threats to our security, how we convey that to 
China.
    In China, in my opinion now, there are probably two schools 
of thought: one that believes that a general conflict would 
risk everything that they have achieved and would even, in the 
long run, be very difficult to manage; and another one that 
thinks that America is basically on the decline. Therefore, no 
attention needs to be paid to our strategic concerns and that 
they can simply plow ahead not in a military way primarily but 
in a way that challenges the their system. That seems to me to 
be the key issue in our relationship with China.
    I think it is of great importance that we attempt a 
conversation, a permanent relationship in which we decide we 
will not settle our conflicts by military means, that we will 
take account of the other's point of view. We will also make 
clear that if our central interests are touched, in the end a 
conflict will happen.
    So this is partly a philosophical problem, and it depends 
on how we conduct our dialogue in this period when both 
countries are evolving in a new direction. China, after several 
hundred years, is reentering the international system. America 
is dealing not only with what we have discussed here, but I 
have been very much concerned with the impact of artificial 
intelligence and the whole evolution of science in which the 
scientists are running way ahead of what the political world 
has been able to absorb. How to master those trends seems to me 
the key issue in the China relationship, and I cannot conceive 
of a war between China and the United States. It will not do to 
the world what World War I did to Europe. So that should be in 
the minds of both leaders, but it may not be. And if it is not, 
then we will have to look to our interests and we must always 
have the capability to prevail in such a conflict.
    Senator King. I now understand why generations of United 
States Presidents have sought your counsel. That was brilliant 
and I appreciate it. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator King.
    Senator Scott?
    Senator Scott. Thank you, Mr. Chairman, and thank you to 
the panel for being here this morning.
    Dr. Shultz, thank you for your service to our country. I 
was very interested in your comments about threats that we have 
not seen before. I think specifically about your comments new 
threats would be small, smart, cheap, and very lethal. I 
combined together your comments about drones with new 
technology and then new gene editing advancements carrying 
unique and specific biological weapons.
    How do we create a national defense strategy around these 
new emerging threats the world has never seen before?
    Dr. Shultz. I think it is a very hard question, and in our 
own little work at Stanford's Hoover Institution, we are trying 
to address it. We are trying to say to ourselves what is going 
to be the impact of this on us. What is going to be the impact 
on Russia and China, on Iran, and so on, and South America, 
around the world? And after we try to think our way through 
those things, then how we position ourselves in this new kind 
of world to be effective, to be effective in advancing our 
interests and taking care of our own population.
    But the threat of pandemics coming from climate change, as 
Lucy Shapiro brings out in her paper--read that paper. I read 
that paper and I called her up. I said, Lucy, I just read your 
paper. I am shivering. It is very compelling stuff. But there 
are also things that you can do with this new technology that 
she talks about that will help us. So I think we ought to be 
pursuing these things very aggressively.
    Senator Scott. Thank you, sir. I certainly would allude to 
the chairman Dr. Shultz's comments about perhaps having Lucy 
Shapiro come talk to us about the importance of the new gene 
editing opportunities whether it is Clustered Regularly 
Interspaced Short Palindromic Repeats (CRISPR) or CAS-9 and 
other new avenues that we will have to explore in the future.
    Dr. Kissinger, I would love to ask you a question.
    Dr. Shultz. I want to underline, Mr. Chairman, that you 
ought to get Lucy to come here and talk. She is so smart, but 
she is so much fun. She will just light up the place, but you 
also are going to learn a lot from her.
    Senator Scott. You guys have been very engaging and also 
very intelligent. So thank you for being here.
    Dr. Kissinger, this morning I had the privilege of having 
breakfast with one of your high school mates, Chairman Alan 
Greenspan, who said hello.
    My question for you, sir, is would you talk a little bit 
about the utility of economic sanctions against Russia, 
specifically energy sanctions, as a way of impacting their 
aggressive behavior.
    Dr. Kissinger. Russia is in my view not a strong country. 
Russia is a weak country with a large military establishment 
and a very determined leader. Russia has presented historically 
a dual challenge to itself and to the world. It covers 11 time 
zones. It is involved in every region of the world. It has no 
natural borders. So it has always attempted to expand to extend 
its security belt.
    On the other hand, at crucial moments in human history, it 
stood up to the Mongols, to the Swedes, to the French, and to 
the Germans and preserved the equilibrium of the world by the 
willingness of its people to suffer for their independence.
    So when I talk about Russia, I try to recognize both of 
these aspects. We need a cooperative Russia for the peace of 
the world because of its reach. But we want to put an end to an 
aggressive Russia that seeks to impose its domination on 
neighboring countries. So one always faces this dual concern.
    Russia being weak, sanctions are, of course, a normal 
weapon. One cannot accept the notion that Russia has a right to 
alter the shape of the Ukraine by its own unilateral position. 
But one's effort should be not to break up Russia, but to 
retain Russia in the system in some fashion.
    So I would have agreed with the concept of sanctions, but 
now I would also think how to bring Russia back into a 
community of nations concept or even a cooperative relationship 
with the United States.
    I met Putin 15 years ago, and at that time, the issue was 
the abrogation of the missile defense agreement in which I had 
been involved. And at that time, this was a month before 9/11. 
Putin said I am not so interested in the missile defense 
agreement. I am interested in radical Islam, and I want to know 
whether it is possible to have a strategic partnership with 
America going from Tehran to Macedonia. So that sort of thing 
is always in the back of their mind, but there is also in the 
front of their mind the environment.
    So my answer to your question is I would reluctantly have 
agreed to sanctions. I would now look for a way to see whether 
we can restore a meaningful dialogue in the context that I 
mentioned, even keeping in mind some of the absolutely 
unacceptable things they did during our election campaign which 
have to be precluded. But I would now think in the 
restructuring of the world that I tried to indicate, we should 
make an effort to have a dialogue with Russia.
    Senator Scott. Thank you, sir. Thank you, Mr. Chairman.
    Senator Inhofe. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman, and thank you to 
our witnesses for being here today and for your history of 
service.
    Secretary Shultz, Secretary Kissinger, you, along with 
former Secretary of Defense Bill Perry and former Senate Armed 
Services Committee chairman Sam Nunn, have formed a group of 
former senior national security officials who have warned about 
the risk of nuclear proliferation. Together you have called for 
a global effort to reliance on nuclear weapons. In 2007, the 
four of you wrote we endorse setting the goal of a world free 
of nuclear weapons and working energetically on the actions 
required to achieve that goal.
    Now, today in this hearing, we have talked about Russia and 
Russia's nuclear policy, but I want to ask about America's 
nuclear policy. In the coming weeks, the Trump administration 
will release its nuclear policy review, which is rumored to 
call for new nuclear weapons capability, more usable nukes, and 
expanded conditions under which the United States would 
contemplate using a nuclear weapon.
    Secretary Shultz, do you continue to believe that the 
United States should reduce its reliance on nuclear weapons, 
and if so, why do you believe that would be in our national 
security interests?
    Dr. Shultz. I think the use of nuclear weapons would 
promote an exchange and would be devastating to our planet. So 
I continue to believe that we should be trying to eliminate 
them. We were getting there for a while, and now that has all 
stopped. And now our problem is proliferation. So this is a new 
problem. We have to work at it and work at it hard.
    Senator Warren. Thank you.
    Specifically, you have recommended to change the posture of 
our deployed weapons to increase warning time and to eliminate 
the class of short-range nuclear weapons that are designed to 
be forward deployed. How would taking these steps reduce the 
risk of miscalculation that could lead to a nuclear exchange?
    Dr. Shultz. Well, actually the intermediate range nuclear 
weapons we did deploy in the Reagan period and particularly the 
ones we deployed in Germany, the Pershings, I think was the 
turning point in the Cold War. But we agreed with the then-
Soviets to eliminate them. So that whole class of weapons was 
eliminated.
    I read now that the Russians are in the process of 
violating that agreement. I have no knowledge, just what I read 
in the papers about it. And I think that is an ominous 
development.
    But I agree very much with what Henry was saying earlier, 
that we need to somehow put a stop sign to the aggressive 
behavior of Russia and try to include them in a constructive 
dialogue which we could then expand to other countries and try 
to get a joint enterprise going that would have the objective 
of getting nuclear weapons out of the world.
    Senator Warren. Thank you. That is very helpful. I 
appreciate your answer.
    There is one other topic I would like to ask you about. 
Last year, the Trump administration sought a significant cut to 
the funding for the Department of State, and many of us are 
concerned about reports of turmoil at the State Department, low 
morale, ambassadorships that have been left unfilled, senior 
career diplomats who are resigning in large numbers. I know 
that Senator Reed asked about morale at the State Department, 
but I want to ask the question from a different point of view.
    The world still looks to the United States for leadership, 
and I am concerned that we are increasingly not there to answer 
the call. So let me ask, Secretary Kissinger and Secretary 
Shultz, what impact does the Trump administration's apparent 
downsizing of the State Department have on our national 
security and on advancing our interests around the world? Would 
you like to start, Dr. Kissinger?
    Dr. Kissinger. I do not look at the State Department 
primarily in terms of its size. I would look at it in terms of 
its missions. And, of course, its missions should be to supply 
us with a correct analysis of where we are functioning, of 
developing a group of people that can think strategically side 
by side with the Pentagon. So this must have a minimum size, 
and I would not make downsizing in the abstract a principle 
objective.
    When one looks at the organization chart of the State 
Department, there are a lot of special assistants and sort of 
technical assignments that can probably be dispensed with. I 
have not thought that the size of the State Department as the 
principal obstacle to foreign policy.
    Senator Warren. Dr. Shultz? I am sorry.
    Dr. Kissinger. I think we should staff it to the level that 
we think is needed for our general foreign policy. I think this 
year it is too dramatic.
    Senator Warren. Thank you.
    Secretary Shultz?
    Dr. Shultz. You told me, Rich, earlier when we discussed 
this that the cuts that were proposed have not been gone 
through and that the Congress has limited them greatly, which I 
welcome. But I think it is essential that we have a strong 
Foreign Service to do the kind of analytical work that Henry 
was talking about and have the capacity in the field to 
execute. Execution is key. A strong analytical group.
    When I was Secretary, I added a lot of work on the security 
side. In an odd way, as an economist, I had a little council of 
economic advisors (CEA) added because it seemed to me I was 
getting from people who knew a lot about subjects, something 
that did not have economic analysis in it. So we had a little 
CEA in the State Department. But those are just small 
organizational rearrangements.
    But I think we need a strong State Department. And as Rich 
was saying earlier, it is particularly important to have a 
strong inflow of talent because these are the people 10, 15 
years from now that you will be looking to. We have got to 
bring them in, train them, give them experiences. They are not 
going to learn from books. They have got to have experience out 
in the field, and that is what they get. So that is essential 
to keep going.
    Senator Warren. Thank you.
    Senator Inhofe. Thank you, Senator Warren.
    Senator Warren. Thank you.
    Senator Inhofe. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, thank you for your decades of service and for 
being here. I apologize. The only thing that was going to keep 
me away from this hearing was my presiding duties over the 
Senate. So I just had to go preside for the last hour, but I am 
glad I made it back in time to ask a few questions. So it is 
great to see all of you again.
    For really the whole panel maybe, our two former 
Secretaries of State, there has been a lot of focus, Dr. 
Kissinger, as you mentioned in your testimony, on the immediate 
challenge of North Korea. The Trump administration has pretty 
much put out a red line. I think they have called it that. 
Maybe they have not called it that, but they are not going to 
allow North Korea to have the capability of an intercontinental 
ballistic missile with the nuclear weapon on top. And yet, that 
red line has either already been crossed in terms of some intel 
analysts or is going to be crossed soon. So it has led to a 
discussion among many policy officials and military experts on 
what is really in some people's view a coming fork in the road, 
that if that is the policy of the administration, that they are 
not going to allow that. And yet, North Korea either has it or 
is going to have it very soon. The fork in the road is either 
some kind of preemptive military option to prevent that 
capability with all its inherent risks or in increasingly tight 
sanctions regime perhaps with a naval blockade that would 
address clamping down on North Korea even more with China's 
help, hopefully, and addressing the issue that you mentioned, 
Dr. Kissinger, of proliferation.
    Could you just in your expertise, for all the witnesses 
today, give us your sense on that fork in the road. Is that a 
false choice? How would you be thinking about that issue 
particularly given that this administration has said we are not 
going to allow this? And yet, it looks like it is going to 
happen soon.
    Dr. Kissinger. In terms of the analysis, we will hit that 
fork in the road. The temptation to deal with it with a 
preemptive attack is strong, and the argument is rational. But 
I have seen no public statement by any leading official. But in 
any event, my own thinking, I would be very concerned by a 
unilateral American war at the borders of China and Russia in 
which we are not supported by a significant part of the world, 
or at least of the Asian world. If China took an unqualified 
opposition to the nuclear program and they joined the program 
with us, I think it should be possible to develop the sort of 
sanctions and pressures that are irresistible. That would be my 
preferred course.
    On the other hand, if it turns out that neither is 
available, then we better get used to the fact that South 
Korea, in my opinion, will not accept being the only Korea that 
has no nuclear weapons, that that will lead to similar trends 
in Japan, and then we are living in a new world in which 
technically competent countries with adequate command 
structures are possessing nuclear weapons in an area in which 
there are considerable national disagreements. That is a new 
world, which will require new thinking by us. And it will also 
require a rethinking, I believe, of our whole deterrent posture 
because right now our deterrent posture basically assumes one 
major enemy. But when you deal with a world in which there will 
be multiple possibilities of conflicts in which we are engaged 
so that we cannot hold back our strategic weapons for one 
decisive thing and we will have to rethink it. I do not know 
yet in which way. This is why I think this little country 
[North Korea] by itself cannot present an overwhelming threat 
to us in a way that presents a key issue right now.
    I support the Trump administration's objective, but when we 
get to your question, we have to do some prayerful thinking 
because that will be to fight a war at the border of China and 
Russia without some agreement with them alone, that is a big 
decision. And I am telling you my doubts and my thinking. I 
agree with bringing pressure on North Korea, and I agree with 
the statements the administration has made up to now. I have 
not stated this publicly before, but if you ask me directly 
what do I think of a war with Korea, this is what I think.
    Senator Sullivan. Secretary Shultz, Secretary Armitage, do 
you have thoughts on that very important question?
    Dr. Shultz. Henry has given a very thoughtful statement.
    I would say be careful with red lines. I remember at the 
start of World War II, I was a boot in the Marine Corps. I 
remember the day the sergeant handed me my rifle. He said take 
good care of this rifle. This is your best friend. And remember 
one thing. Never point this rifle at anybody unless you are 
willing to pull the trigger. No empty threats. Empty threats 
destroy you. So I would be very careful in drawing red lines 
that imply that if somebody messes with them, there is going to 
be a nuclear war.
    I agree entirely with Henry here that we should be working 
with China and perhaps, Russia, but particularly China. As it 
dawns on everybody that what is potentially happening here is 
exactly what Henry said that there is going to be a 
proliferation of nuclear weapons all through Asia, and that is 
not very comfortable for China. And I think if we could work 
constructively with China on this, we just might get something 
done.
    I know it has been a while, but my own experience with 
China, like Henry's, has been that you can work constructively 
with the Chinese. After all, they are losing population. They 
have plenty of problems. Their GDP per capita is not high, and 
they want to raise it. And they are not going to raise it by 
turning their back on the rest of the world. They are going to 
raise it by interacting and being part of it.
    Senator Sullivan. Mr. Secretary?
    Mr. Armitage. Senator Sullivan, I am in the position of a 
guy who says that everything that can be said has been said, 
just not by me. So I am going to forgo the temptation.
    Senator Sullivan. Mr. Chairman, may I seek the indulgence 
of you and the witnesses for one final question?
    Senator Inhofe. Yes.
    Senator Sullivan. Thank you.
    Dr. Kissinger, you mentioned with regard to China, the rise 
of China. And the insights in your testimony when you mentioned 
that China in its centuries-long history has never conceived of 
a foreign nation as more than a tributary to the centrality of 
its power and culture.
    I was wondering in that regard--there is an issue that a 
number of us have been focused on. It is the basic principle of 
reciprocity. It seems that increasingly in our relationship 
with China, us and other countries, that there seems to be a 
lack of reciprocity in how they operate and how we operate. 
Meaning that there are many things that China does here in our 
country that if you were an American citizen, an American 
diplomat, an American journalist, an American company, you 
could not do the same thing in China. You know, that goes 
across a broad spectrum of foreign direct investment. They come 
here. They buy American companies in all kinds of sectors. We 
could not do that over there. They have thousands of so-called 
journalists in our country. We could not do that over there.
    Could you comment just on this issue, given your decades-
long experience with China, and how this issue of reciprocity, 
which a number of us are starting to focus on as a key 
principle in our relationship, should be something that we 
could do, but it does not seem something that they currently 
seem interested in? Does that reflect your comments in your 
testimony about China never really perceiving a foreign nation 
as an equal in the long history of that country.
    Dr. Kissinger. The history of a country sort of forms its 
character to some extent. China did not have a foreign ministry 
until 1911. Before 1911, foreign policy was conducted by 
something called the Ministry of Rituals, which placed the 
foreign country in a hierarchy vis-a-vis China. So it is part 
of their thinking, of their experience.
    On the other hand, we have seen that President Xi Jinping 
at Davos last year presented a sort of global view, and I 
believe China has understood that in this world the principles 
of sovereignty and equality will be the governing ones. But in 
the natural analysis, to some extent, it is in the back of 
their mind. In my experience, I think the Chinese are 
compulsive students and they analyze each problem with enormous 
care.
    So to your question, our approach is usually pragmatic. We 
want a solution to a problem. The Chinese approach is usually 
no problem gets finally solved. Every solution is an admissions 
ticket to another problem. So the issue between us when we talk 
is how do you marry the conceptual approach of the Chinese with 
the pragmatic approach. I think that the Chinese are very 
confident now of their achievements. At the same time, I 
believe it likely that the leadership realizes that it is very 
difficult, if not impossible, for them to carry out the 
domestic changes in an atmosphere of Cold War with the United 
States. And therefore, I have believed that at least an attempt 
should be made to see whether we could come to some 
understanding of the limits of our conduct towards each other 
and, where possible, where we can operate cooperatively.
    But if you look at the One Belt One Road initiative, if it 
progresses, it goes across many great civilizations, and not 
all of them are going to adhere to that automatically. So there 
should be an occasion for the United States to develop its 
concept, and the Chinese with theirs with a lot of flexibility 
given the scope. But when there is no flexibility and a contest 
occurs, we have to be aware of the fact that it would have 
catastrophic consequences for the world and that it is hard to 
see who can win with modern weapons, with new weapons that one 
has no experience with, with weapons like George has described.
    This is what drives my thinking on China. I recognize that 
by their scope and their history, they are a powerful force in 
the world. We cannot abolish that. We have to be sure that we 
understand what our role is in the world and develop a long-
range dialogue that does not change every 4 years and the 
capacity to deal with it. And a part of that, of course, is 
that any lasting structure must have reciprocity, maybe not in 
every individual field, but the perception of the chief actors 
has to be that the relationship is reciprocal.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Sullivan.
    This has been just overwhelming to us to be able to hear 
from you. This was actually better than it was back in 2015. So 
I thank you very much for your patience and for your wisdom. 
You have done a great service to America. Thank you so much.
    We are adjourned.
    [Whereupon, at 12:22 p.m., the committee adjourned.]

                                 [all]
</pre></body></html>
